No. 20In The

(Court of tbr TUnxtib States
HollyFrontier Cheyenne Refining, LLC, HollyFrontier Refining & Marketing, LLC, HollyFrontier Woods Cross Refining, LLC, &
Wynnewood Refining Co., LLC,
Petitioners,
v.
Renewable Fuels Association, et al.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
APPENDIX TO PETITION
FOR A WRIT OF CERTIORARI
Melissa M. Buhrig
Ryan C. Morris*
Peter C. Whitfield
CVR Energy, Inc.
2277 Plaza Drive
Christopher S. Ross
Suite 500
Sidley Austin LLP
Sugar Land, TX 77479
1501 K Street, N.W.
(281) 207-3200
Washington, D.C. 20005
mmbuhrig@cvrenergy.com (202) 736-8000
rmorris@sidley.com
Counsel for Wynnewood Counsel for HollyFrontier
Refining Co., LLC
Cheyenne Refining, LLC,
HollyFrontier Refining &
Marketing, LLC, and
HollyFrontier Woods Cross
Refining, LLC
September 4, 2020
* Counsel of Record

TABLE OF CONTENTS
Page
APPENDIX A: Opinion, Renewable Fuels Ass’n
v. U.S. Envtl. Prot. Agency, 948 F.3d 1206
(10th Cir. 2020).............................................

la

APPENDIX B: Order Denying Petition for Re­
hearing or Rehearing En Banc, Renewable
Fuels Ass’n v. U.S. Envtl. Prot. Agency, No.
18-9533 (10th Cir. Apr. 7, 2020)................... 95a
APPENDIX C: Statutory and Regulatory Provi­
sions Involved............................................... 97a

42 U.S.C. § 7545(o)(9).............................. 97a
40 C.F.R. §80.1441................................. 99a

(i)

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-9533
Renewable Fuels Association; American
Coalition for Ethanol; National Corn Growers
Association; National Farmers Union,
Petitioners,
v.
United States Environmental Protection Agency,
Respondent,
and
HollyFrontier Cheyenne Refining, LLC;
HollyFrontier Refining and Marketing, LLC;
HollyFrontier Woods Cross Refining, LLC;
Wynnewood Refining Company, LLC,
Intervenors-Respondents.
The American Fuel and Petrochemical
Manufacturers,
Amicus Curiae.
Petition for Review from an Order of the
Environmental Protection Agency
(EPA No. 1-3876)
Filed January 24, 2020

2a
Before: BRISCOE, KELLY, and LUCERO,
Circuit Judges.
OPINION
BRISCOE, Circuit Judge:
I.

THE CLEAN AIR ACT, RENEWABLE
FUELS, AND SMALL REFINERIES......... 1215
A.

LEGISLATIVE AND EXECUTIVE HIS­
TORY....................................................... 1215

B.

REGULATIONS AND POST-ENACT­
MENT HISTORY................................... 1219

C.

THE EXEMPTION EXTENSION PE­
TITIONS ................................................ 1226
1.

CHEYENNE................................... 1227

2.

WOODS CROSS............................. 1228

3.

WYNNEWOOD.............................. 1229

II. THE BIOFUELS COALITION’S STAND­
ING TO SUE.................................................. 1230
III. OTHER JURISDICTIONAL ISSUES......... 1239
A.

TIMELINESS........................................ 1239

B.

RIPENESS............................................. 1241

IV. THE BIOFUELS COALITION’S STATU­
TORY CONSTRUCTION CHALLENGES... 1242
A.

EXTENSION OF EXEMPTION........... 1243
1.

TEXTUAL ANALYSIS................... 1244

2.

THE 2014 SMALL REFINERY
RULE.............................................. 1249

V.

B.

3a
DISPROPORTIONATE ECONOMIC
HARDSHIP............................................ 1252

C.

HARDSHIP FROM COMPLIANCE.... 1253

THE BIOFUELS COALITION’S ADDI­
1254
TIONAL CHALLENGES

VI. MOTIONS........................
VII. CONCLUSION...............

1257
1258

In the mid-2000s, Congress launched an effort to
amend the Clean Air Act (“CAA”) to try to reduce the
nation’s dependence on fossil fuels. The resulting leg­
islation set ambitious targets for replacing specified
volumes of crude oil fuel with renewable fuels. The
legislation created several exemptions from this “bio­
fuels” mandate, including a temporary exemption for
small refineries if compliance in a given year would
impose disproportionate economic hardship. The
United States Environmental Protection Agency
(“EPA” or “agency”) is charged with implementing the
legislation, and the agency has promulgated numer­
ous regulations for that purpose.
At issue here are three EPA orders granting exten­
sions of the small refinery exemption. Those orders
were not made available to the public, for reasons
later explained. The orders are being challenged by a
group of renewable fuels producers who say they
found out about the extensions through news articles
or public company filings. We refer to these producers
collectively as the Biofuels Coalition, and their peti­
tion to this court raises several important questions.
The EPA opposes the Biofuels Coalition’s appeal. So
do the three recipients of the small refinery exten­
sions, who have been granted leave to intervene.

4a
As a preliminary matter, we conclude that the Bio­
fuels Coalition has standing to sue. Constituents of
the Biofuels Coalition have established an injury in
fact in the form of lower prices, lower revenues, or in­
creased competition with respect to the renewable
fuels those constituents market and sell. For stand­
ing purposes, this injury is fairly traceable to the
EPA’s decisions to grant extensions of the three small
refinery exemptions in question. A favorable judicial
decision is likely to redress at least some of this inju­
ry, assuming, as we must, that the EPA will continue
to follow Congress’s directive to implement and flesh
out the renewable fuels program.
We also conclude that this court otherwise has ju­
risdiction over the matter. This case does not involve
a challenge to a nationally-applicable agency rule,
which challenge could only be heard in the United
States Court of Appeals for the District of Columbia
Circuit. The Clean Air Act contains a 60-day filing
deadline with jurisdictional implications, but that
deadline is triggered when final agency action ap­
pears in the Federal Register. The EPA never pub­
lished the extension orders at issue. And although
members of the Biofuels Coalition were not invited to
participate in the proceedings that generated the or­
ders, the record is sufficient (and the controversy is
ripe) for judicial resolution.
On the merits, we agree in part with two of the Bio­
fuels Coalition’s three statutory construction argu­
ments. The amended Clean Air Act allows the EPA to
grant an “extension” of the small refinery exemp­
tion - not a stand-alone “exemption” - in response to
a convincing petition. The statute limits exemptions
to situations involving “extensions,” with the goal of
forcing the market to accept escalating amounts of
renewable fuels over time. None of the three small

5a
refineries here consistently received an exemption in
the years preceding its petition. The EPA exceeded its
statutory authority in granting those petitions be­
cause there was nothing for the agency to “extend.”
Further, one of the EPA’s reasons for granting the
petitions was to address disproportionate economic
hardship caused by something other than compliance
with the renewable fuels mandate. That, too, was be­
yond the agency’s statutory authority. The Biofuels
Coalition additionally claims that the EPA read the
word “disproportionate” out of the statute, but we re­
ject that argument.
Once we move from the topic of statutory authority,
we disagree with almost all of the Biofuels Coalition’s
assertions that the EPA acted arbitrarily and capri­
ciously in granting the extension petitions. We hold
that the agency did abuse its discretion, however, by
failing to address the extent to which the three refin­
eries were able to recoup their compliance costs by
charging higher prices for the fuels they sell. The
EPA has studied and staked out a policy position on
this issue. One of the refineries expressly raised the
issue in its extension petition. It was not reasonable
for the agency to ignore it.
I.

THE CLEAN AIR ACT, RENEWABLE FUELS
AND SMALL REFINERIES

As background for our textual analysis, we briefly
summarize the legislative and executive history of
the pertinent amendments to the Clean Air Act,
along with the law’s provisions relating to small re­
fineries. We summarize EPA regulations and post­
enactment legislative and executive branch pro­
nouncements concerning these small refinery provi­
sions as well. We then describe the orders issued by
the EPA granting the three small refinery extension
petitions at the heart of this case.

A.

6a
LEGISLATIVE AND EXECUTIVE HISTORY

Congress changed the “Renewable Content of Gaso­
line” when it amended the Clean Air Act through the
Energy Policy Act of 2005 (“Energy Policy Act”), Pub.
L. No. 109-58, 119 Stat. 594. The Energy Policy Act
directed the EPA to promulgate regulations to ensure
that gasoline sold or introduced into commerce in the
United States included rising amounts of renewable
fuel, going from four billion gallons in 2006 to seven
and a half billion gallons in 2012. Id.
§§ 1501(o)(2)(A)-(B). Renewable fuel targets for 2013
and beyond were to be determined later. Id.
§ 1501(o)(2)(B)(ii). The statute also created a “Credit
Program” under which fuel refiners, blenders, or im­
porters could buy or sell compliance credits. Id.
§ 1501(o)(5). The Energy Policy Act contained a
“Temporary Exemption” until calendar year 2011 for
small refineries, defined as those “for which the aver­
age aggregate daily crude oil throughput for a calen­
dar year (as determined by dividing the aggregate
throughput for the calendar year by the number of
days in the calendar year) does not exceed 75,000
barrels.” Id. §§ 1501(o)(l)(D), 1501(o)(9)(A)(i). The
statute instructed the EPA to extend this exemption
for at least two years for any small refinery identified
in an upcoming study by the Department of Energy
(“DOE”) as suffering “disproportionate economic impact
if
required
to
comply[.]”
Id.
§§ 1501 (o) (9) (A) (ii) (I)—(II).
Congressional reports on the proposals that became
the Energy Policy Act foreshadowed these provisions.
A House report stated that H.R. 1640 would increase
the volume of renewable fuels from 3.1 billion gallons
in 2005 to 5.0 billion gallons in 2012, and “would al­
low refineries, blenders, and importers to accumulate
and trade credits[.]” H.R. Rep. No. 109-215, pt. 1, at

7a
221, 270 (2005). A Senate report stated that a “major
provision” of S. 10 would increase the volume of re­
newable fuels from four billion gallons in 2006 to
eight billion gallons in 2012, with provisions relating
to “participation by small refiners” and “a fuel pro­
ducer credit and trading program.” S. Rep. No. 10978, at 2, 18—19 (2005). The reports from both cham­
bers discussed the overall policy objectives of the leg­
islation. See id. at 1, 6 (“The widening gap between
supply and demand, accompanied by reliance on for­
eign sources to close that gap, has created profound
concerns in the Congress over the nation’s energy se­
curity. ... Coupled with those concerns is the recogni­
tion that meeting demand must be accomplished in
an environmentally sound manner.”); H.R. Rep. No.
109-215, pt. 1, at 169 (“Energy security is critical in a
world of growing demand and regional political insta­
bility. Dependence on any single source of energy, es­
pecially from a foreign country, leaves America vul­
nerable to price shocks and supply shortages.”).
President George W. Bush signed the Energy Policy
Act into law. He stated that the bill “will strengthen
our economy, and it will improve our environment,
and it’s going to make this country more secure.” Re­
marks on Signing the Energy Policy Act of 2005 in
Albuquerque, New Mexico, 41 Weekly Comp. Pres.
Doc. 1262 (Aug. 8, 2005), reprinted in 2005
U.S.C.C.A.N. S17, S19. The President observed that
“[t]he bill also will lead to a greater diversity of fuels
for cars and trucks. The bill includes tax incentives
for producers of ethanol and biodiesel. The bill in­
cludes a flexible, cost-effective renewable fuel stand­
ard that will double the amount of ethanol and bio­
diesel in our fuel supply over the next 7 years.” Id. at
1264—65, S22. The President added that “[ujsing eth­
anol and biodiesel will leave our air cleaner. And eve-

8a
ry time we use a home-grown fuel, particularly these,
we’re going to be helping our farmers and, at the
same time, be less dependent on foreign sources of
energy.” Id. at 1265, S22.
Congress expanded the provisions of the Energy
Policy Act relating to renewable fuels - and further
amended the Clean Air Act - through the Energy In­
dependence and Security Act of 2007 (“Energy Inde­
pendence and Security Act”), Pub. L. No. 110-140,
121 Stat. 1492. Those changes and others are now re­
flected in section 7545(o) of Title 42. The current ver­
sion of the statute increases renewable fuel obliga­
tions in at least four categories: (1) renewable fuel,
defined as “fuel that is produced from renewable bio­
mass and that is used to replace or reduce the quanti­
ty of fossil fuel present in a transportation fuel,” is
targeted to rise from four billion gallons in 2006 to 36
billion gallons in 2022, 42 U.S.C. §§ 7545(o)(l)(J),
7545(o)(2)(B)(i)(I); (2) advanced biofuel, generally de­
fined as renewable fuel “other than ethanol derived
from corn starch” with lifecycle greenhouse gas emis­
sions at least 50 percent less than baseline,1 is tar­
geted to rise from 0.6 billion gallons in 2006 to 21 bil­
lion gallons in 2022, id.
§§ 7545(o)(l)(B),
7545(o)(2)(B)(i)(II); (3) cellulosic biofuel, defined as
renewable fuel “derived from any cellulose, hemicellulose, or lignin that is derived from renewable bio­
mass” with lifecycle greenhouse gas emissions at
least 60 percent less than baseline, is targeted to rise
from 0.1 billion gallons in 2010 to 16 billion gallons in
2022, id. §§ 7545(o)(l)(E), 7545(o)(2)(B)(i)(III); and (4)
1 The statute defines “baseline lifecycle greenhouse gas emis­
sions” as “the average lifecycle greenhouse gas emissions,” as
determined by the EPA, for “gasoline or diesel (whichever is be­
ing replaced by the renewable fuel) sold or distributed as trans­
portation fuel in 2005.” 42 U.S.C. § 7545(o)(l)(C).

9a
biomass-based diesel (“BBD”), defined with certain
exceptions as renewable fuel that is “biodiesel” with
lifecycle greenhouse gas emissions at least 50 percent
less than baseline, was targeted to rise from 0.5 bil­
lion gallons in 2009 to one billion gallons in 2012,
with volumes in later years to be set by the EPA in
consultation with the DOE. Id. §§ 7545(o)(l)(D),
7545(o)(2)(B)(i)(IV), 7545(o)(2)(B)(ii).
As amended, this portion of the Clean Air Act con­
tains additional provisions on greenhouse gas emis­
sions. For renewable fuel produced from new facilities
commencing production after December 19, 2007, the
law states that such fuel must achieve “at least a 20
percent reduction in lifecycle greenhouse gas emis­
sions compared to baseline lifecycle greenhouse gas
emissions.” Id. § 7545(o)(2)(A)(i). Several emissions
are each identified as a “greenhouse gas,” and the
EPA is authorized to include, after notice and com­
ment, “any other anthropogenically-emitted gas” de­
termined “to contribute to global warming.” Id.
§ 7545(o)(l)(H). The term “lifecycle greenhouse gas
emissions,” in turn, is defined to include the aggre­
gate quantity of emissions “related to the full fuel
lifecycle” where “the mass values for all greenhouse
gases are adjusted to account for their relative global
warming potential.” Id.
The statute directs the EPA to issue regulations to
ensure that the requirements of the law are met. Id.
§ 7545(o)(2)(A)(iii). The statute also directs the EPA,
after receiving an estimate of renewable fuel volumes
from the Energy Information Administration (“EIA”)
by October 31 of each year from 2005 through 2021,
to “determine and publish in the Federal Register” by
November 30 of each year the renewable fuel obliga­
tions for the upcoming year. Id. §§ 7545(o)(3)(A)-(B).
The EPA expresses these obligations in terms of a

10a
“volume percentage” of transportation fuel sold or in­
troduced into commerce in the United States. Id.
§§ 7545(o)(3)(B)(ii)(I)-(III). As discussed in more de­
tail below, this process involves transforming aggre­
gate volumes from the EIA into individual compliance
obligations. The EPA estimates what percentage of
the overall fuel supply each of the four renewable fuel
types specified in the statute should constitute, and
requires designated entities to replicate those per­
centages on an individual basis. The law states that
yearly renewable fuel obligations are “applicable to
refineries, blenders, and importers, as appropriate [.]”
Id. § 7545(o)(3)(B)(ii).
The Energy Independence and Security Act contin­
ued the credit program established by the Energy
Policy Act. The current version of the statute envi­
sions the generation of credits for refined, blended, or
imported gasoline with greater-than-required quanti­
ties of renewable fuel; for the use or transfer to an­
other person of such credits; and for carrying forward
a renewable fuel deficit in certain circumstances (a
deficit that must be addressed “in the calendar year
following the year in which the renewable fuel deficit
is created”). Id. §§ 7545(o)(5)(A)-(B), (D). The law
states that a credit “shall be valid to show compliance
for the 12 months as of the date of generation.” Id.
§ 7545(g)(5)(C).
The Energy Independence and Security Act also
continued to make available a small refinery exemp­
tion. The definition of “small refinery” still looks to
whether a refinery has average aggregate daily crude
oil throughput for a calendar year of 75,000 barrels or
less. 42 U.S.C. § 7545(o)(l)(K). The “Temporary ex­
emption” was again written to apply to small refiner­
ies until 2011, with a minimum extension of the ex­
emption of two years for any such refinery deter-

11a
mined to be subject to a disproportionate economic
hardship by a DOE study to be conducted no later
than 2008. Id. §§ 7505(o)(9)(A)(i)-(ii). Small refineries
continue to be able to petition the EPA “at any time”
for
an
extension of this
exemption.
Id.
§ 7545(o)(9)(B)(i). The EPA is obligated to “make ad­
justments” when determining the renewable fuel vol­
ume percentages for an upcoming calendar year to
“account for the use of renewable fuel during the pre­
vious calendar year by small refineries that are exempt[.]” Id. § 7545(o)(3)(C)(ii).
Several supporters of the Energy Independence and
Security Act in the Senate highlighted that the bill
substantially increased renewable fuel requirements
to promote energy independence and environmental
stewardship. In the words of one legislator:
To help reduce our dependence on imported oil,
and on oil consumption, this bill strengthens the
renewable fuels standard. It sets clear bench­
marks for higher levels of production of biofuels
made from corn as well as other feedstocks, in­
cluding soybean oil, switchgrass, and other
sources of energy that will be developed in the
future. With this bill we will shift some of our
energy reliance from the oilfields of the Middle
East to the corn fields of the Midwest. The bill
will ratchet up the schedule for the use of renew­
able fuels in our cars and trucks from the level of
7.5 billion gallons by 2012, as passed in the 2005
Energy Bill, to 15 billion gallons by 2015 and 36
billion gallons by 2022. That represents a major
advance in our commitment to renewable, home
grown fuels that reduce emissions, mitigate
global warming, and improve farmer income.
153 Cong. Rec. S15421, S15429 (daily ed. Dec. 13,
2007) (statement of Sen. Durbin); see also id. at

12a
S15428 (statement of Sen. Johnson) (commenting
that “[t]his bipartisan bill builds on the success of the
Energy Policy Act of 2005, which authorized the first
nationwide renewable fuel standard, RFS,” that the
bill will ramp up “the amount of ethanol and cellulosic ethanol produced in this country so that by 2020
the United States will produce a minimum of 36 bil­
lion gallons of renewable fuels,” and that “[w]e are
going to produce more fuel from renewable resources
and over the long-term decrease the amount of fossil
fuels we need to import from unstable regions of the
globe”); id. (statement of Sen. Cardin) (“H.R. 6 raises
the annual requirement for the amount of renewable
fuels used in cars and trucks to 36 billion gallons by
2022. H.R. 6 makes a historic commitment to develop
cellulosic ethanol by requiring that the United States
produce 21 billion gallons of advanced biofuels, like
cellulosic ethanol. Homegrown renewable fuels will
replace the equivalent of all the oil we import from
the Middle East today.”); 153 Cong. Rec. S15004,
S15008 (daily ed. Dec. 7, 2007) (statement of Sen.
Reid) (“This legislation makes an unprecedented
commitment to American-grown biofuels by increas­
ing the renewable fuels standard to 36 billion gallons
by the year 2022, which will not just reduce our ad­
diction to oil but create American jobs as well.”).
Certain members of the House of Representatives
likewise embraced the view that the substantial in­
crease in renewable fuel utilization envisioned by the
Energy Independence and Security Act would pro­
duce geopolitical and environmental benefits. 153
Cong. Rec. H16659, H16744-45 (daily ed. Dec. 18,
2007)
(statement
of
Rep.
Jackson-Lee)
(“[T]ransitioning from foreign oil to ethanol will pro­
tect our environment from dangerous carbon and
greenhouse gas emissions. With its commitment to

13a
American biofuels, the legislation calls for a signifi­
cant increase in the Renewable Fuels Standard. It
encourages the diversification of American energy
crops thus ensuring that biodiesel and cellulosic
sources are key components in America’s drive to be­
come energy independent.”); id. at H16749 (state­
ment of Rep. Udall) (“And it will increase the Renew­
able Fuels Standard (RFS), which sets annual re­
quirements for the amount of renewable fuels pro­
duced and used in motor vehicles. The new RFS has
specific requirements for the use of biodiesel and cel­
lulosic sources to ensure that these ethanol sources
also advance along with corn-based ethanol. Fur­
thermore, the bill includes critical environmental
safeguards to ensure that the growth of homegrown
fuels helps to reduce carbon emissions.”); 153 Cong.
Rec. H14434, H14437 (daily ed. Dec. 6, 2007) (state­
ment of Rep. Conyers) (“The legislation before us to­
day also reduces our dependence on foreign oil. The
initiative includes a historic commitment to Ameri­
can biofuels that will fuel our cars and trucks.”); id.
at H14439 (statement of Rep. Engel) (stating that the
legislation makes “an historic commitment to Ameri­
can grown biofuels,” including an RFS “which will en­
sure that a percentage of our nation’s fuel supply will
be provided by the domestic production of biofuels,”
providing a pathway “for reduced consumer fuel pric­
es, increased energy security, and growth in our na­
tion’s factories and farms”).
The substantial increase in renewable fuel targets
in the Energy Independence and Security Act also
prompted some objections to the legislation. See, e.g.,
153 Cong. Rec. E2589, E2589-90 (daily ed. Dec. 17,
2007) (statement of Rep. Herger) (“H.R. 6 seeks to
raise the current ethanol requirement by a factor of
five. Such a dramatic increase, combined with grow-

14a
ing demand for corn-fed meat products the world
over, will likely result in even higher food prices for
U.S. consumers.”); 153 Cong. Rec. S15421, S15422—23
(daily ed. Dec. 13, 2007) (statement of Sen. Inhofe)
(“The renewable fuels standard increase is going to
mandate an increase from 7 V2 to 15. That is of corn
ethanol. Then other bio increases are more than
that. ... [T]he livestock and the poultry people ... are
very distressed because of the increase in the cost of
feedstock. This is going to make it that much worse.
There are other problems with that too, with etha­
nol’s effect on food prices: economic sustainability,
transportation infrastructure needs, the water usage
in that process.”); 153 Cong. Rec. H14434, 14441 (dai­
ly ed. Dec. 6, 2007) (statement of Rep. Goodlatte)
(“This legislation would dramatically expand the Re­
newable Fuels Standard (RFS) by increasing it to 36
billion gallons by 2022. This initiative is extremely
ambitious .... The RFS provisions create an unrealis­
tic mandate for advanced biofuels technology that
doesn’t yet exist and creates hurdles for the develop­
ment of second generation biofuels ....”).
The objections did not carry the day, and President
George W. Bush signed the Energy Independence and
Security Act into law. The President noted that when
he endorsed the Energy Policy Act two years earlier,
he understood “we needed to go even further.” State­
ment by President George W. Bush Upon Signing
H.R. 6 (Dec. 19, 2007), reprinted in 2007
U.S.C.C.A.N. S25. He said the Energy Independence
and Security Act was “a major step toward reducing
our dependence on oil, confronting global climate
change, expanding the production of renewable fuels
and giving future generations of our country a nation
that is stronger, cleaner and more secure.” Id. He de­
clared that “[t]he bill I sign today takes a significant

15a
step because it will require fuel producers to use at
least 36 billion gallons of biofuel in 2022. This is
nearly a fivefold increase over current levels. It will
help us diversify our energy supplies and reduce our
dependence on oil. It’s an important part of this legis­
lation, and I thank the members of Congress for your
wisdom.” Id. at S26.
B.

REGULATIONS AND POST-ENACTMENT
HISTORY

The EPA has issued a number of regulations to im­
plement the renewable fuels program. Although the
statute refers to “refineries, blenders, and importers”
in connection with yearly percentage volume re­
quirements, 42 U.S.C. § 7545(o)(3)(B)(ii), the EPA
confines “obligated parties” to refiners and importers.
40 C.F.R. § 80.1406(a)(1). The EPA has published the
equations used to calculate the annual renewable fuel
percentage standards, id. § 80.1405(c), along with the
formulas used to determine individual Renewable
Volume Obligations (“RVOs”) as to the four categories
of renewable fuels. Id. § 80.1407(a). In general, an
RVO for an obligated party is determined by applying
an annual percentage requirement to the amount of
non-renewable fuel produced or imported by that par­
ty, and then adding any deficit carryover from the
previous year. Id.
The EPA administers credits using a device known
as a Renewable Identification Number (“RIN”). Id.
§ 80.1401. The regulations describe how RINs are
generated and assigned to batches of renewable fuel
by producers and importers. Id. § 80.1426. Each party
required to meet an RVO must demonstrate that it
has “retired for compliance purposes” a sufficient
number of RINs. Id. § 80.1427(a)(1). This involves
“separating” RINs by blending the renewable fuel
with petroleum-based fuel, id. § 80.1429, at which

16a
point the RINs may be “transferred any number of
times.” Id. § 80.1428(b)(3). RINs created by blending
or purchase typically may only be used to demon­
strate compliance “for the calendar year in which
they were generated or the following calendar year.”
Id. § 80.1427(a)(6)(i). RINs used to show compliance
in one year usually “cannot be used to demonstrate
compliance in any other year.” Id. § 80.1427(a)(6)(ii).
A RIN is considered “expired” if not used during the
year of its creation or the year after, and “an expired
RIN will be considered an invalid RIN and cannot be
used for compliance purposes.” Id. § 80.1428(c).
The EPA has regulations pertaining to the small re­
finery exemption as well. The regulations recognized
an exemption in 2010 for each entity that met “the
definition of small refinery” for “calendar year 2006.”
Id. § 80.1441(a)(1). The regulations stated that this
exemption “shall be extended” for at least two years if
a DOE study determined compliance would impose
disproportionate
economic
Id.
hardship.
§ 80.1441(e)(1). The regulations indicate that a small
refinery may petition for “an extension” of the exemp­
tion “at any time,” and that such a petition must
“specify the factors that demonstrate a disproportion­
ate economic hardship;” provide a detailed discussion
regarding “the hardship the refinery would face in
producing” compliant transportation fuel; and identi­
fy “the date the refiner anticipates that compliance
with the requirements can reasonably be achieved[.]”
Id. § 80.1441(e)(2)(i). In 2014, the EPA amended the
regulations to change the definition of a small refin­
ery (the “2014 Small Refinery Rule”):
In order to qualify for an extension of its small
refinery exemption, a refinery must meet the def­
inition of “small refinery” in § 80.1401 for the
most recent full calendar year prior to seeking an

17a
extension and must be projected to meet the def­
inition of “small refinery” in § 80.1401 for the
year or years for which an exemption is sought.
Failure to meet the definition of small refinery
for any calendar year for which an exemption
was granted would invalidate the exemption for
that calendar year.
Id. § 80.1441(e)(2)(iii).
At least since 2010, see id. § 80.1405(a), the EPA
has published lengthy documents setting yearly re­
newable fuel standards and explaining how the pro­
gram works. These documents acknowledge that the
program originated with the Energy Policy Act and
was modified by the Energy Independence and Secu­
rity Act. E.g., Renewable Fuel Standard Program:
Standards for 2018 and Biomass-Based Diesel Vol­
ume for 2019 (“EPA 2018 Standards”), 82 Fed. Reg.
58,486, 58,487 (Dec. 12, 2017). They also acknowledge
that the stated goals of the Energy Independence and
Security Act included moving the country toward
“greater energy independence and security [and] to
increase the production of clean renewable fuels.” Id.
(brackets in original). “The fundamental objective of
the RFS provisions under the CAA is clear: To in­
crease the use of renewable fuels in the U.S. trans­
portation system every year through at least 2022 in
order to reduce greenhouse gases (GHGs) and in­
crease energy security.” Renewable Fuel Standard
Program: Standards for 2014, 2015 and 2016 and Bi­
omass-Based Diesel Volume for 2017 (“EPA 20142016 Standards”), 80 Fed. Reg. 77,420, 77,421 (Dec.
14, 2015).
The EPA in recent years has announced volume re­
quirements that are “lower than the statutory tar­
gets,” but the agency contends these targets “never­
theless will ensure these renewable fuels will contin-

18a
ue to play a critical role as a complement to our petro­
leum-based fuels.” EPA 2018 Standards, 82 Fed. Reg.
at 58,487. Starting no later than 2015, for instance,
the EPA indicated that “challenges have made the
volume targets established by Congress for 2014,
2015, and 2016 beyond reach.” EPA 2014-2016
Standards, 80 Fed. Reg. at 77,422. The EPA thus de­
cided to apply “the tools Congress provided to make
adjustments to the statutory volume targets in recog­
nition of the constraints that exist today,”2 while at
the same time retaining standards sufficient to “drive
growth in renewable fuels, particularly advanced bio­
fuels which achieve the lowest lifecycle GHG emis­
sions.” Id. at 77,423; see also Renewable Fuel Stand­
ard Program: Standards for 2017 and Biomass-Based
Diesel Volume for 2018, 81 Fed. Reg. 89,746, 89,747
(Dec. 12, 2016) (“The standards we are setting are de­
signed to achieve the Congressional intent of increas­
ing renewable fuel use over time in order to reduce
lifecycle GHG emissions of transportation fuels and
increase energy security, while at the same time ac­
counting for real-world challenges that have slowed
progress toward these goals.”).
The EPA’s stated aim in harmonizing real-world
constraints with aggressive statutory renewable fuel
targets is to maintain the RFS program “as a market
forcing policy.” EPA 2014-2016 Standards, 80 Fed.
2 The statute contains several qualifications and waiver provi­
sions. See, e.g., 42 U.S.C. § 7545(o)(2)(B)(ii) (describing factors to
be analyzed when setting renewable fuel volumes); id.
§ 7545(o)(4) (identifying circumstances where greenhouse gas
reduction percentages may be adjusted); id. §§ 7545(o)(7)(A)-(C),
(F) (allowing waivers based on severe harm to the economy or
environment, or on inadequate domestic supply); id.
§§ 7545(o)(7)(D)—(E) (setting forth conditions under which vol­
umes of cellulosic biofuel and biomass-based diesel must or may
be reduced).

19a
Reg. at 77,423. In the EPA’s words, “[t]he objective of
the program is to introduce increasing volumes of re­
newable fuels, with a focus on cellulosic and other
advanced renewable fuels, into the marketplace.
Congress made the decision that this is an appropri­
ate policy objective, and put in place a program to
achieve that policy goal.” Id.-, see also id. (“The fact
that Congress chose to mandate increasing and sub­
stantial amounts of renewable fuel clearly signals
that it intended the RFS program to create incentives
to increase renewable fuel supplies and overcome
constraints in the market.”). The EPA has observed
that (1) “Congress set targets that envisioned growth
at a pace that far exceeded historical growth and pri­
oritized that growth as occurring principally in ad­
vanced biofuels;” and (2) “[i]t is apparent, therefore,
that Congress intended changes to the extent and
pace of growth of renewable fuel use that would be
unlikely to occur absent the new program.” Id. at
77,432.
The EPA has also reviewed how overall targets are
translated into individual compliance requirements
for obligated parties. According to the EPA:
Under the RFS program, EPA is required to de­
termine and publish annual percentage stand­
ards for each compliance year. The percentage
standards are calculated to ensure use in trans­
portation fuel of the national “applicable vol­
umes” of the four types of biofuels (cellulosic bio­
fuel, BBD, advanced biofuel, and total renewable
fuel) that are set forth in the statute or estab­
lished by EPA in accordance with the Act’s re­
quirements. The percentage standards are used
by obligated parties (generally, producers and
importers of gasoline and diesel fuel) to calculate
their individual compliance obligations. Each of

20a
the four percentage standards is applied to the
volume of non-renewable gasoline and diesel that
each obligated party produces or imports during
the specified calendar year to determine their
individual volume obligations with respect to the
four renewable fuel types. The individual volume
obligations determine the number of Renewable
Identification Numbers (RINs) of each renewable
fuel type that each obligated party must acquire
and retire to demonstrate compliance.
EPA 2018 Standards, 82 Fed. Reg. at 58,488. The
EPA maintains that “[t]he percentage standards are
set so that if every obligated party meets the percent­
ages by acquiring and retiring the appropriate num­
ber of RINs, then the amount of renewable fuel, cellulosic biofuel, BBD, and advanced biofuel used will
meet the applicable volume requirements on a na­
tionwide basis.” Id. at 58,522.
As to small refineries, the EPA’s standard-setting
documents confirm that “Congress provided a tempo­
rary exemption” which could be extended beyond
2010 “based either on the results of a required DOE
study, or based on an EPA determination of ‘dispro­
portionate economic hardship’ on a case-by-case basis
in response to small refinery petitions.” EPA 2018
Standards, 82 Fed. Reg. at 58,523; see also Regula­
tion of Fuels and Fuel Additives: 2013 Renewable
Fuel Standards (“EPA 2013 Standards”), 78 Fed. Reg.
49,794, 49,821 (Aug. 15, 2013) (“Congress provided
two ways that small refineries can receive a tempo­
rary extension of the exemption beyond 2010.”). As
stated by the EPA, Congress “spoke directly to the
relief that EPA may provide for small refineries,” and
“limited that relief to a blanket exemption through
December 31, 2010, with additional extensions if the
criteria specified by Congress are met.” Regulation of

21a
Fuels and Fuel Additives: Changes to Renewable
Fuel Standard Program, 75 Fed. Reg. 14,670, 14,736
(Mar. 26, 2010).
The DOE issued a small refinery study in 2009. The
study “did not find that small refineries would face a
disproportionate economic hardship under the RFS
program.” Regulation of Fuels and Fuel Additives:
2012 Renewable Fuel Standards (“EPA 2012 Stand­
ards”), 77 Fed. Reg. 1,320, 1,339 (Jan. 9, 2012) (foot­
note omitted). The EPA understood that the conclu­
sions of the 2009 DOE study “were based in part on
the expected robust availability of RINs and EPA’s
ability to grant relief on a case-by-case basis.” Id. at
1,339-40. The EPA explained that as a result of the
2009 study, “beginning in 2011 small refiners and
small refineries were required to participate in the
RFS program as obligated parties,” and “there was no
small refiner/refinery volume adjustment to the 2011
standard as there was for the 2010 standard.” Id. at
1,340.
A report from the Senate Committee on Appropria­
tions criticized the DOE’s 2009 study. The report
stated that “[t]he Committee understands the study
contained inadequate small refinery input, did not
assess the economic condition of the small refining
sector, take into account regional factors or accurate­
ly project RFS compliance costs.” S. Rep. No. 111-45,
at 109 (2009). The Committee generally directed the
DOE to “reopen and reassess the Small Refineries
Exemption Study,” and specifically directed the DOE
to “seek and invite comment from small refineries on
the RFS exemption hardship question, assess RFS
compliance impacts on small refinery utilization rates
and profitability, evaluate the financial health and
ability of small refineries to meet RFS requirements,
study small refinery impacts and regional dynamics

22a
by [Petroleum Administration for Defense District,
or] PADD, and reassess the accuracy of small refinery
compliance costs through the purchase of renewable
fuel credits.” Id. (brackets added). A House confer­
ence report added that “[t]he conferees support the
study requested by the Senate on RFS and expect the
Department to undertake the requested economic re­
view.” H.R. Rep. No. 111-278, at 126 (2009).
The DOE issued a revised small refinery study in
2011. The EPA in 2012 wrote that “DOE recently re­
evaluated the impacts of the RFS program on small
entities and concluded that 21 small refineries would
suffer a disproportionate hardship if required to par­
ticipate in the program. As a result, these refineries
will be exempt from being obligated parties for a min­
imum of two additional years, 2011 and 2012.” EPA
2012 Standards, 77 Fed. Reg. at 49,821 (footnotes
omitted). The EPA currently says on its website that
“[f|or 2011 and 2012, 24 small refineries were granted
an exemption” under 42 U.S.C. § 7545(o)(9)(A)(ii). See
RFS Small Refinery Exemptions, https://www.epa.gov/ '
fuels-registration-reporting-and-compliancehelp/rfssmall-refinery-exemptions (“Small Refinery Exemp­
tions, EPA Website,” last visited January 17, 2020).
The EPA cites the 2019 data from this website with
approval in its appellate brief. EPA Respondent’s Br.
at 12 n.l.
As directed, one of the steps the DOE took to revisit
the issue of disproportionate economic hardship was
to survey small refineries. Small Refinery Exemption
Study: An Investigation into Disproportionate Eco­
nomic Hardship (“2011 DOE Study”), U.S. Depart­
ment of Energy (Mar. 2011, redacted), Administrative
Record volume 1 (“REC1”) at 483, 489-90. With those
survey results in hand, the DOE concluded that
“[d]isproportionate economic hardship must encom-

23a
pass two broad components: a high cost of compliance
relative to the industry average, and an effect suffi­
cient to cause a significant impairment of the refinery
operations.” Id. at 495. The DOE created scoring ma­
trixes to reflect these two categories. Id. at 495, 52328. The first matrix contains scoring for “Dispropor­
tionate Structural Impact Metrics” (with categories
for access to capital/credit, other business lines be­
sides refining and marketing, local market ac­
ceptance of renewables, percentage of diesel produc­
tion, and exceptional state regulations) and “Dispro­
portionate Economic Impact Metrics” (with categories
for relative refining margin measure, renewable fuel
blending as a percentage of production, operation in a
niche market, and RINs net revenue or cost). Id. at
525-27. The second matrix contains scoring for “Via­
bility Metrics” (with categories for compliance costs
eliminating efficiency gains, individual special
events, and compliance costs being likely to lead to a
shutdown). Id. at 528; see also Addendum to the
Small Refinery Exemption Study: An Investigation
into Disproportionate Economic Hardship, U.S. De­
partment of Energy (May 2014), REC1 at 583-85 (ex­
plaining scoring changes with respect to the viability
matrix).
In late 2015, Congress provided an explanatory
statement on the 2016 Consolidated Appropriations
Act concerning the DOE’s scoring system. Noting that
the DOE’s 2011 study set forth “two broad compo­
nents” for disproportionate economic hardship — “a
high cost of compliance relative to the industry aver­
age disproportionate impacts” and “an effect suffi­
cient to cause significant impairment of the refinery
operations viability” - the explanatory statement
provided that if the Secretary of Energy “finds that
either of these two components exists, the Secretary

24a
is directed to recommend to the EPA Administrator a
50 percent waiver of RFS requirements for the peti­
tioner.” 161 Cong. Rec. H9693, H10105 (daily ed. Dec.
17, 2015). The explanatory statement further provid­
ed that a small refinery with profits sufficient to cov­
er RFS compliance costs might nonetheless be subject
to a disproportionate economic hardship:
[T]he dramatic rise in RIN prices has amplified
RFS compliance and competitive disparities, es­
pecially where unique regional factors exist, in­
cluding high diesel demand, no export access,
and limited biodiesel infrastructure and produc­
tion. In response to recent petitions, the Secre­
tary determined that the RFS program would
impose a disproportionate economic and struc­
tural impact on several small refineries. Despite
this determination, the Secretary did not rec­
ommend, and EPA did not provide, any RFS re­
lief because it determined the refineries were
profitable enough to afford the cost of RFS com­
pliance without substantially impacting their vi­
ability. The Secretary is reminded that the RFS
program may impose a disproportionate econom­
ic hardship on a small refinery even if the refin­
ery makes enough profit to cover the cost of com­
plying with the program. Small refinery profita­
bility does not justify a disproportionate regula­
tory burden where Congress has explicitly given
EPA authority, in consultation with the Secre­
tary, to reduce or eliminate this burden.
Id.
A 2016 Senate report on appropriations for various
agencies contained similar observations. The Senate
report commented that “[i]n response to several re­
cent petitions,” the EPA had “determined that com­
pliance with the RFS would have a disproportionate

25a
economic impact on a small refinery, but denied
hardship relief because the small refinery remained
profitable notwithstanding the disproportionate eco­
nomic impact.” S. Rep. No. 114-281, at 70 (2016). The
report indicated that “[t]his is inconsistent with con­
gressional intent because the statute does not con­
template that a small refinery would only be able to
obtain an exemption by showing that the RFS pro­
gram threatens its viability. Congress explicitly au­
thorized the Agency to grant small refinery hardship
relief to ensure that small refineries remain both
competitive and profitable.” Id.; see also id. (intimat­
ing that “small entities cannot remain competitive
and profitable if they face disproportionate structural
or economic metrics such as limitations on access to
capital, lack of other business fines, disproportionate
production of diesel fuel, or other site specific fac­
tors”). In a separate explanatory statement on an
agreement regarding appropriations amendments,
the House echoed that “[t]he agreement includes the
directive contained in Senate Report 114-281 related
to small refinery relief.” 163 Cong. Rec. H3327,
H3884 (daily ed. May 3, 2017) (statement of Rep.
Frelinghuysen).
Beginning in 2016, the EPA began granting more
petitions to extend the small refinery exemption. Ta­
ble 2 on the EPA’s website indicates that while the
agency granted 23 of 41 extension petitions from
2013-2015 (reflecting an approval rate of approxi­
mately 56%, as two petitions were declared ineligible
or withdrawn), the agency granted 85 of 94 extension
petitions from 2016-2018 (reflecting an approval rate
of approximately 90%, as five petitions were declared
ineligible or withdrawn):

26a
Compli- Number Number Number Number Number Number
ance
of
of
of
of
of
of
Year Petitions Grants Denials Petitions Petitions Pending
Received Issued Issued Declared With- Petitions
Ineligible drawn
2013
16
8
7
0
1
0
2014
13
8
5
0
0
0
14
2015
7
6
1
0
0
2016
20
19
1
0
0
0
2017
1
37
35
0
1
0
2018
42
31
6
2
3
0
2019
21
0
0
0
21
0

Small Refinery Exemptions, EPA Website (data as of
January 16, 2020); see also Renewable Fuel Standard
Program: Standards for 2019 and Biomass-Based
Diesel Volume for 2020 (“EPA 2019 Standards”), 83
Fed. Reg. 63,704, 63,707 (Dec. 11, 2018) (stating that
in response to comments suggesting increased disclo­
sure of “data related to the RIN market,” the EPA
“made additional information available through our
public website,” including “the number of small refin­
ery exemption petitions received, granted, and denied
by year”). The EPA granted 19 of 20 small refinery
extension petitions in 2016, 35 of 36 eligible and
maintained petitions in 2017, and 31 of 37 eligible
and maintained petitions in 2018. Small Refinery Ex­
emptions, EPA Website.
As the number of granted petitions began to rise, so
too did the amount of fuel exempted from the amend­
ed Clean Air Act’s renewable fuels targets. Table 1 on
the EPA’s website reveals not only that exempted
volumes of gasoline and diesel went from approxi­
mately 2 billion gallons in 2013 to a peak of 17 billion
gallons in 2017 (with more than 13 billion exempted
gallons in 2018), but also that exempted RVOs went
from approximately 190 million RINs in 2013 to an

27a
apex of 1.8 billion RINs in 2017 (with more than 1.4
billion exempted RINs in 2018):
Compliance

Year
2013
2014
2015
2016
2017
2018
2019

Estimated Volumes of
Estimated Renewable
Gasoline and Diesel Volume Obligations (RVO)
Exempted
Exempted
(million gallons)
(million RINs)

1,980
2,300
3,070
7,840
17,050
13,420
0

190
210
290
790
1,820
1,430
0

Id. (rounded to the nearest 10 million gallons or
RINs).
If any small refinery petitions to extend the tempo­
rary exemption are granted after the announcement
of the applicable percentage standards for a given
year, the EPA does not modify the standards to ac­
count for the exemptions. The EPA has followed this
policy at least from 2011 through 2018, reasoning
that “the Act is best interpreted to require issuance of
a single annual standard in November that is appli­
cable in the following calendar year, thereby provid­
ing advance notice and certainty to obligated parties
regarding their regulatory requirements.” Regulation
of Fuels and Fuel Additives: 2011 Renewable Fuel
Standards (“EPA 2011 Standards”), 75 Fed. Reg.
76,790, 76,804 (Dec. 9, 2010). The EPA says that
“[p]eriodic revisions to the standards to reflect waiv­
ers issued to small refineries or refiners would be in­
consistent with the statutory text, and would intro­
duce an undesirable level of uncertainty for obligated
parties.” Id.; see also EPA 2018 Standards, 82 Fed.
Reg. at 58,523 (“EPA is maintaining its approach that
any exemptions for 2018 that are granted after the
final rule is released will not be reflected in the per-

28a
centage standards that apply to all gasoline and die­
sel produced or imported in 2018.”)- The EPA recog­
nizes that “any exemption for a small refinery will
result in a proportionally higher percentage standard
for remaining obligated parties,” and that “this will
affect the degree to which individual obligated parties
can acquire sufficient RINs for compliance through
blending ethanol into gasoline that they produce.”
EPA 2011 Standards, 75 Fed. Reg. at 76,805.
C.

THE EXEMPTION EXTENSION PETITIONS

The EPA is required to consider DOE studies and
other economic factors when assessing small refinery
petitions. 42 U.S.C. § 7545(o)(9)(B)(ii). Operating
within this framework, the EPA received and evalu­
ated the three extension petitions at issue in this
case. HollyFrontier Cheyenne Refining LLC (“Chey­
enne”) submitted a petition in March 2017. Adminis­
trative Record volume 2 (“REC2”) at 589-610. Hol­
lyFrontier Woods Cross Refining LLC (“Woods
Cross”) submitted a petition in September 2017. Id.
at 648-63. Wynnewood Refining Company, LLC
(“Wynnewood”) submitted a petition in January 2018.
Id. at 686-731. The petitions for these three refiner­
ies (“the Refineries”) are discussed in more detail be­
low.
As a prelude, we describe how information identi­
fied by the parties as confidential has been handled.
As noted infra in § II, the Refineries requested confi­
dentiality when they submitted their extension peti­
tions to the EPA. The parties continued on appeal to
seek confidential treatment of certain business in­
formation. In a series of orders, this court provision­
ally granted the parties’ request for a protective or­
der, along with the parties’ requests to file particular
briefs and record materials under seal. In each of
those orders, the court explained that it retained dis-

29a
cretion to revisit the issues. At the court’s prompting,
the Refineries later indicated whether they objected
to the disclosure of several specific facts.
The court is honoring most - but not all — of the Re­
fineries’ confidentiality objections. The court is also
maintaining the confidential status of any previouslysealed document. The court has kept in mind 5 U.S.C.
§ 552(b)(4), which contains a disclosure exemption for
privileged or confidential “trade secrets and commer­
cial or financial information,” as well as 40 C.F.R.
§ 2.208, which states that “business information is
entitled to confidential treatment” if various re­
quirements are met. Any instance in this opinion in
which the court parts company with the parties on
confidentiality is based both on these standards and
on the “strong presumption” under the common law
“in favor of public access.” United States v. Pickard,
733 F.3d 1297, 1302 (10th Cir. 2013) (citation omit­
ted); see also Colony Ins. Co. v. Burke, 698 F.3d 1222,
1241 (10th Cir. 2012) (commenting that this pre­
sumption “may be overcome where countervailing in­
terests heavily outweigh the public interests in ac­
cess”) (citation and internal quotation marks omit­
ted).
1.

CHEYENNE

According to the petition submitted on behalf of
Cheyenne in 2017, the refinery employs approximate­
ly 300 people in Wyoming. REC2 at 590. Because it
was identified in the DOE’s 2011 study as being sub­
ject to disproportionate economic hardship, Cheyenne
was granted an extension of the small refinery ex­
emption through 2012. Id. Cheyenne did not apply for
or did not receive an extension of the exemption in
2013 and 2014. Id. at 638 n.13. Cheyenne applied to
extend the exemption in 2015, but the EPA denied
the petition. Id. at 590, 638 n.13. On appeal, this

30a
court granted an unopposed motion by the EPA to va­
cate the denial and remand the matter to the agency
for further proceedings consistent with Sinclair Wyo.
Refining Co. v. EPA, 874 F.3d 1159 (10th Cir. 2017).
The parties have not discussed the subsequent pro­
ceedings, but we assume for purposes of this opinion
that Cheyenne’s 2015 petition was granted on re­
mand. See infra § II (summarizing post-SmcZair
events in the context of redressability).
Cheyenne contended in its 2017 petition that re­
newable fuel compliance in 2016 would impose dis­
proportionate economic hardship. Cheyenne empha­
sized that it focused on diesel (normally blended with
less renewable fuel than gasoline) and otherwise had
limited blending abilities, in contrast to some “larger,
more competitive refineries.” REC2 at 592-93. Chey­
enne argued that “[t]he cost of RIN purchases and the
poor economics of biodiesel blending threaten the vi­
ability of the Cheyenne refinery[.]” Id. at 593. Chey­
enne described the expenses it believed would arise
out of RFS compliance in 2016, consisting of blending
costs and RIN purchase costs. Id. at 593, 596. Chey­
enne averred that it had no other business lines be­
sides refining and marketing, that it had an operat­
ing loss and an asset impairment in 2016, that it had
relatively thin margins over the past three years, and
that it did not operate in a niche market. Id. at 59597.
The DOE applied its scoring criteria and recom­
mended denying Cheyenne’s request for an extension
of the small refinery exemption in 2016. Id. at 62728. The DOE gave Cheyenne “a score of 0.9 in the
structural and economic metric and a score of 0.0 in
the viability metric.” Id. at 628. The DOE concluded
that “the HollyFrontier Cheyenne refinery had posi­
tive refining margins and RFS compliance would not

31a
appear, based on the data we analyzed, to threaten
the refinery’s economic viability.” Id.
The EPA declined to follow the DOE’s recommenda­
tion and granted Cheyenne’s petition. Id. at 614, 62946. The EPA acknowledged that “it has been found
that a refinery does not experience disproportionate
economic hardship simply because it may need to
purchase a significant percentage of its RINs for
compliance from other parties, even though RIN pric­
es have increased since the DOE study, because the
RIN prices lead to higher sales prices obtained for the
refineries’ blendstock, resulting in no net cost of com­
pliance for the refinery.” Id. at 634 n.5 (emphasis in
original). The EPA also acknowledged that the DOE
did not find “disproportionate economic and structur­
al impacts and the Cheyenne Refinery.” Id. at 645.
After summarizing Cheyenne’s financial history,
however, id. at 637-42, the EPA determined that the
refinery “would suffer a disproportionate economic
hardship if it had to comply with the RFS obligations
for 2016 and should be granted full relief.” Id. at 646.
In granting the petition, the EPA reasoned that “for
a refinery like the Cheyenne Refinery, its dispropor­
tionate economic hardship may be the result of other
economic factors, including a difficult year for the in­
dustry as a whole.” Id. at 645. The EPA found that
Cheyenne’s financial performance showed the refin­
ery would disproportionately suffer “from compliance
with RFS obligations.” Id. The EPA discussed Chey­
enne’s financial performance in 2016, Cheyenne’s
cash flow from 2014-2016, Cheyenne’s net refining
margin in 2016, and Cheyenne’s three-year average
net refining margin. Id. at 640, 645.
In the process of adjudicating Cheyenne’s petition,
the EPA acknowledged it was generally altering its
methodology. The agency stated “[i]n prior decisions,

32a
EPA considered that a small refinery could not show
disproportionate economic hardship without showing
an effect on ‘viability,’ but we are changing our ap­
proach.” Id. at 636 n.10. The agency explained that
“[wjhile a showing of a significant impairment of re­
finery operations may help establish disproportionate
economic hardship, compliance with RFS obligations
may impose a disproportionate economic hardship
when it is disproportionately difficult for a refinery to
comply with its RFS obligations - even if the refin­
ery’s operations are not significantly impaired.” Id. at
636 n.10, 646 n.41.
2.

WOODS CROSS

The 2017 petition submitted on behalf of Woods
Cross stated that the refinery has 285 employees and
70 full-time contractors in Utah. Id. at 648-49. The
petition asserted neither that Woods Cross was iden­
tified as being subject to disproportionate economic
hardship in the DOE’s 2011 study, nor that Woods
Cross previously sought or received other extensions
of the small refinery exemption. Id. at 648—53. Woods
Cross declared that compliance with RFS in 2016
would impose disproportionate economic hardship be­
cause the refinery has no other lines of business and
cannot blend the full amount of required renewable
fuel, because “there is still some resistance to the ac­
ceptance of biodiesel” in Woods Cross’s market, and
because buying RINs “adds a heavy financial burden
to the refinery and renders it economically inefficient
relative to its competition.” Id. at 649-52. Woods
Cross described what it believed its compliance costs
for 2016 would be, tallying up RIN purchases and
blending costs. Id. at 652.
The DOE recommended granting Woods Cross’s pe­
tition in part. Id. at 678-79. The DOE gave Woods
Cross “a score of 1.9 in the structural and economic

33a
metric and a score of 0.0 in the viability metric.” Id.
at 679. The DOE found that Woods Cross “did not
have negative refining margins while making signifi­
cant refinery investments, thus RFS compliance
would not appear, based on the data we analyzed, to
threaten the refinery’s economic viability.” Id. Be­
cause Woods Cross scored above 1.0 in the first met­
ric, the DOE suggested that EPA consider a “50 per­
cent exemption from the 2016 RFS[.]” Id.
The EPA granted Woods Cross’s petition and
awarded a full extension of the small refinery exemp­
tion, rather than a partial extension of the exemp­
tion. Id. at 665, 680-85. The EPA noted this court
held in Sinclair that the agency’s previous viability
requirement for “disproportionate economic hardship”
was “at odds with Congress’s statutory command.” Id.
at 681-82 (citation omitted); see also Sinclair, 887
F.3d at 988 (“[T]he EPA has exceeded its statutory
authority under the CAA in interpreting the hardship
exemption to require a threat to a refinery’s survival
as an ongoing operation.”). The agency recounted,
however, that “prior to this ruling, EPA had already
changed its approach for the 2016 small refinery peti­
tions issued in May 2017.” REC2 at 682. The agency
clarified that it had determined disproportionate eco­
nomic hardship “can exist on the basis of adverse
structural conditions alone. A difficult year for the
refining industry as a whole may exacerbate econom­
ic problems for small refineries that face dispropor­
tionate impacts.” Id.; see also id. (stating that the
“industry-wide downward trend” of lower net refining
margins “can result in tangible effects on small refin­
eries with adverse structural conditions”).
The EPA concluded that in combination with other
factors, unfavorable structural conditions for Woods
Cross warranted “100% relief.” Id. at 682, 684. The

34a
EPA drew attention to limitations on the refinery’s
blending capabilities, and addressed Woods Cross’s
net refining margins and financial performance in
2015 and 2016. Id. at 684. This analysis led the EPA
to decide that “the Woods Cross Refinery will experi­
ence [disproportionate economic hardship] that can
be relieved in whole or in part by removing its RFS
obligations for 2016.” Id. (brackets added).
3.

WYNNEWOOD

The petition submitted on behalf of Wynnewood in
2018 described that refinery as having more than 300
employees and more than 250 full-time contractors in
Oklahoma. Id. at 688. The petition stated that
Wynnewood received an extension of the blanket ex­
emption in 2011 and 2012, but “has not received
hardship relief since 2012.” Id. at 687. Wynnewood
described what it believed RFS compliance costs
would be, and compared those costs to the refinery’s
other operating expenses. Id. at 688-89, 694. In light
of the refinery’s financial performance in 2017,
Wynnewood claimed the RFS compliance costs would
impose disproportionate economic hardship. Id. at
689.
The Wynnewood petition addressed all of the fac­
tors in the DOE’s scoring matrixes. As to structural
and economic factors, Wynnewood presented argu­
ments concerning (1) access to capital or credit; (2)
other lines of business; (3) the market for the rele­
vant blended renewable fuels; (4) the refinery’s pro­
portion of diesel fuel; (5) the refinery’s net refining
margins in 2015 and 2016, along with a three-year
average margin; (6) the presence or absence of a
niche market; and (7) the possibility of “passing
through” RIN expenses to customers. Id. at 689-96.
As to viability, Wynnewood again referenced the met­
ric of average net refining margin, and gave the EPA

35a
an assessment of competitiveness and profitability.
Id. at 696.
Similar to Woods Cross, the DOE recommended “a
50 percent exemption from the 2017 RFS” for
Wynnewood. Id. at 736. The DOE scored Wynnewood
on structural, economic, and viability metrics. Id. The
DOE stated that “the refinery has positive refining
margins and RFS compliance would not appear,
based on the data we analyzed, to threaten the refin­
ery’s economic viability.” Id. Nonetheless, based on
structural and economic factors, the DOE suggested
that the EPA grant a partial extension of the small
refinery exemption. Id.
The EPA granted Wynnewood’s petition and fully
extended the exemption for 2017. Id. at 733, 737-41.
The EPA explained that “[i]n previous year decisions,
DOE and EPA considered that [disproportionate eco­
nomic hardship] exists only when a refinery experi­
ences both disproportionate impacts and viability im­
pairment.” Id. at 738 (brackets added). The EPA con­
tinued that in response to concerns that the threshold
for establishing disproportionate economic hardship
was “too stringent,” Congress clarified that such
hardship “can exist if DOE finds that a small refinery
is experiencing either disproportionate impacts or vi­
ability impairment.” Id. (emphasis in original). Once
again, the EPA stated that hardship “can exist on the
basis of adverse structural conditions alone,” and a
difficult year “may exacerbate economic problems for
small refineries that face disproportionate impacts[.]”
Id. at 738-39.
The EPA thus decided that unfavorable structural
conditions and other factors justified “100% relief’ for
Wynnewood. Id. at 739-41. The EPA focused on
Wynnewood’s financial performance in 2016 and the
first three quarters of 2017, coupled with Wynne-

36a
wood’s net refining margins. Id. at 741. The EPA con­
cluded by stating that Wynnewood would experience
disproportionate economic hardship which “can be
relieved in whole or in part by removing its RFS obli­
gations for 2017.” Id.
II.

THE BIOFUELS COALITION’S STANDING
TO SUE

Although the EPA does not challenge the Biofuels
Coalition’s standing to sue, the Refineries do. Ad­
dressing those arguments requires an understanding
of the four organizations that make up the Biofuels
Coalition. The first organization is the Renewable
Fuels Association (“RFA”), a trade association for the
ethanol industry. Geoff Cooper Declaration (“Cooper
Decl.”) U 2. RFA members include “companies that
manufacture and market ethanol fuel to blenders and
marketers of gasoline, as well as companies that pro­
vide goods and services (such as process technologies
and raw feedstocks) to ethanol producers.” Id.
Through its President and Chief Executive Officer,
RFA avers that its members “operate facilities in 24
states, from California to New York, and are respon­
sible for the production of almost a third of the etha­
nol sold in the United States.” Id. Uf 2-3. The second
organization is the American Coalition for Ethanol
(“ACE”), another ethanol advocacy group. Brian Jen­
nings Declaration (“Jennings Decl.”) If 2. It also
counts as members both producers and other compa­
nies that support the industry. Id. 1 2 & Ex. A.
Through its Chief Executive Officer, the organization
attests that “[m]any of ACE’s members” produce eth­
anol, and “[o]ther members grow crops, primarily
corn, that are used in the production of renewable
fuels.” Id. 1HI 7-8.
The other two Biofuels Coalition members are simi­
lar, but even more focused on feedstocks. The third

37a
organization is the National Farmers Union (“NFU”),
an advocacy group for “family farmers, ranchers and
rural communities[.]” Roger Johnson Declaration
(“Johnson Decl.”) If 2. According to the group’s Presi­
dent, “NFU’s members include family farmers and
growers of crops such as corn and soybeans[.]” Id.
1ft 2-4. NFU further declares that “[c]orn is used to
produce most of the non-advanced portion of renewa­
ble fuels (conventional renewable fuel), and soybeans
are used to produce biomass-based diesel.” Id. t 5.
The fourth organization is the National Corn Growers
Association (“NCGA”). NCGA’s Chief Executive Of­
ficer declares that the association “represents more
than 40,000 dues-paying corn farmers nationwide
and more than 300,000 corn growers who contribute
to NCGA through the corn programs (known as
‘checkoff programs) in their states.” Jon Doggett Dec­
laration (“Doggett Decl.”) If If 1-3, 5. NCGA reiterates
that “[c]orn is used as a feedstock to make ethanol[.]”
Id. f 6.
The Constitution specifies that the “judicial Power
of the United States” extends only to “Cases” and
“Controversies.” U.S. Const, art. Ill, §§ 1-2. Standing
to sue “is a doctrine rooted in the traditional under­
standing” of those terms. Spokeo, Inc. u. Robins,---U.S.
136 S. Ct. 1540, 1547, 194 L.Ed.2d 635
(2016). The doctrine “requires federal courts to satisfy
themselves that the plaintiff has alleged such a per­
sonal stake in the outcome of the controversy so as to
warrant his invocation of federal-court jurisdiction.”
Summers v. Earth Island Inst., 555 U.S. 488, 493,
129 S.Ct. 1142, 173 L.Ed.2d 1 (2009) (citation and in­
ternal quotation marks omitted, emphasis in origi­
nal). By limiting the category of litigants empowered
to maintain a federal lawsuit, the law of Article III
standing “serves to prevent the judicial process from

38a
being used to usurp the powers of the political
branches, and confines the federal courts to a proper­
ly judicial role.” Spokeo, 136 S. Ct. at 1547 (citations
and internal quotation marks omitted).
The “irreducible constitutional minimum” of stand­
ing is threefold. Lujan v. Defenders of Wildlife, 504
U.S. 555, 560, 112 S.Ct. 2130, 119 L.Ed.2d 351
(1992). “The plaintiff must have (1) suffered an injury
in fact, (2) that is fairly traceable to the challenged
conduct of the defendant, and (3) that is likely to be
redressed by a favorable judicial decision.” Spokeo,
136 S. Ct. at 1547. An injury in fact must be not only
“concrete and particularized,” but also “actual or im­
minent,” as opposed to “conjectural” or “hypothetical.”
Lujan, 504 U.S. at 560, 112 S.Ct. 2130 (citations and
internal quotation marks omitted). “Although the
‘traceability’ of a plaintiffs harm to the defendant’s
actions need not rise to the level of proximate causa­
tion, Article III does require proof of a substantial
likelihood that the defendant’s conduct caused the
plaintiffs injury in fact.” Habecker v. Town of Estes
Park, Colo., 518 F.3d 1217, 1225 (10th Cir. 2008) (ci­
tation and internal quotation marks omitted). And
“[t]o demonstrate redressability, a party must show
that a favorable court judgment is likely to relieve the
party’s injury.” WildEarth Guardians v. Pub. Seru.
Comm’n of Colo., 690 F.3d 1174, 1182 (10th Cir.
2012) (citation omitted).
“The party invoking federal jurisdiction bears the
burden of establishing” standing. Lujan, 504 U.S. at
561, 112 S.Ct. 2130. Each element “must be support­
ed in the same way as any other matter on which the
plaintiff bears the burden of proof, i.e., with the man­
ner and degree of evidence required at the successive
stages of the litigation.” Id. On a direct appeal from
an administrative decision, the complainant “must

39a
produce evidence on each element of standing as if it
were moving for summary judgment in district court.”
N. Laramie Range Alliance v. FERC, 733 F.3d 1030,
1034 (10th Cir. 2013). If a counterparty contests
these facts, the complainant will not enjoy “the bene­
fit of any inference” and must discharge its burden
under a preponderance-of-the-evidence standard. Id.
(citation omitted). The evidence must show that the
complainant “had standing when it filed its petition
for review.” Id.
An association seeking to invoke federal court ju­
risdiction must make a further showing. The associa­
tion must demonstrate that “its members would oth­
erwise have standing to sue in their own right;” “the
interests it seeks to protect are germane to the organ­
ization’s purpose;” and “neither the claim asserted
nor the relief requested requires the participation of
individual members in the lawsuit.” Hunt v. Wash.
State Apple Advert. Comm’n, 432 U.S. 333, 343, 97
S.Ct. 2434, 53 L.Ed.2d 383 (1977). Because the Refin­
eries in this case do not challenge the latter two com­
ponents, we focus on the core elements of standing,
keeping in mind that “the gist of the question” is
whether members of the Biofuels Coalition “have
such a personal stake in the outcome of the contro­
versy as to assure that concrete adverseness which
sharpens the presentation of issues upon which the
court so largely depends for illumination.” Massachu­
setts v. EPA, 549 U.S. 497, 517, 127 S.Ct. 1438, 167
L.Ed.2d 248 (2007) (citation and internal quotation
marks omitted). We also recognize that “when the
plaintiff is not himself the object of the government
action or inaction he challenges, standing is not pre­
cluded, but it is ordinarily substantially more difficult
to establish.” Summers, 555 U.S. at 494, 129 S.Ct.
1142 (citation and internal quotation marks omitted).

40a
The Biofuels Coalition principally relies on an affi­
davit and a report from RFA’s chief economist to
prove standing. Scott Richman Declaration (“Richman Decl.”) If If 1—5. The economist provides his esti­
mation, in gallons, of total renewable fuel obligations
for Cheyenne and Woods Cross in 2016 and Wynnewood in 2017. Id. If 10. He then identifies, as a per­
centage, what the extensions granted to the Refiner­
ies represent in terms of all exempted volumes. Scott
Richman Report (“Richman Report”) at 3, 12-13, 17.
He observes that the EPA reinstated the RINs Chey­
enne and Woods Cross had previously retired for
compliance purposes in 2016, and he appears to as­
sume the agency simply relieved Wynnewood of its
RIN retirement obligation in 2017. Richman Decl.
f f 12, 23. He then opines that the Refineries can “use
these reinstated RINs in many ways,” including sell­
ing the RINs to other obligated parties or using the
RINs to satisfy RVOs for other refineries owned by
the same corporate parent. Id. If If 13, 23. He main­
tains that the Refineries’ sale or use of these RINs to
establish compliance inflicts “economic harm” on
members of the Biofuels Coalition, because obligated
parties use such RINs “instead of blending ethanol or
obtaining RINs representing additional blending
from other parties.” Id. Iff 9, 23.
RFA’s economist bases this conclusion on an indus­
try-wide analysis of the effects of the 48 small refin­
ery exemption extensions granted overall for 2016
and 2017, as well as the effects of the three exemp­
tion extensions at issue in this case. Id. ff 5, 18, 21.
He observes that there are approximately 2.59 billion
carryover RINs available to meet 2019 renewable fuel
volume requirements, and he attributes most of these
carryover RINs to the 48 extensions. Id. f 15 & n.6
(citing an earlier publication of the EPA 2019 Stand-

41a
ards, 83 Fed. Reg. at 63,709); Richman Report at 9 &
n.10 (same). This, according to the economist, has
“contributed to reduced demand and lower per-gallon
prices for ethanol. These factors have resulted in low­
er revenues received by RFA’s ethanol producing
members.” Richman Decl. If 5; Richman Report at 1.
In particular, he states that extensions in the aggre­
gate have caused the ethanol “blend rate,” or etha­
nol’s average inclusion in the nation’s gasoline sup­
ply, to fall by 162 million gallons from February 2018
to August 2018. Richman Decl. 1f 16; Richman Report
at 1, 9-11, 24—25. Valuing ethanol at $1.45 per gallon
during this time period, he asserts that the drop in
the blend rate resulted in an estimated $233 million
revenue reduction for the industry and an estimated
$68 million revenue reduction for RFA members.
Richman Decl. If 17; Richman Report at 16—17. For
this same time period, he calculates estimated reve­
nue reductions for the industry overall and for RFA
members due to the Refineries’ extensions. Richman
Decl. If 18; Richman Report at 17.
RFA’s economist claims these numbers are con­
servative. He reasons that the foregoing numbers un­
derstate the economic injury to the Biofuels Coalition
because “the reduction in demand has forced RFA
members and other producers to sell ethanol at lower
prices than that which they would receive” had small
refinery extensions not been granted. Richman Decl.
1 19; Richman Report at 17-19. He attests that etha­
nol prices would have been $0.08 per gallon higher in
February 2018 absent these extensions, and $0.34 per
gallon higher by June 2018 “given the continued ef­
fect on consumption^]” Richman Decl. 1f 20; Richman
Report at 2-3, 19. “Without adjusting for any possible
increase in production due to increased consumption
that would have occurred” in the absence of the 48

42a
small refinery extensions, he argues, from February
to August 2018 the annualized impact on industry
revenues was $4 billion and the annualized impact on
RFA members’ revenues was $1.2 billion. Richman
Report at 19-20. He closes by attributing a substan­
tial amount of “unrealized value” across the indus­
try - and a specific amount of “unrealized value” for
RFA members - to the Refineries’ exemptions. Richman Decl. If 21; Richman Report at 3, 20-21.
The Refineries do not meaningfully dispute that
this evidence is sufficient to establish an injury in
fact, the first prong of the test for Article III standing.
“For standing purposes, a loss of even a small amount
of money is ordinarily an ‘injury.’ ” Czyzewski v. Jevic
Holding Corp.
U.S.
, 137 S. Ct. 973, 983,
197 L.Ed.2d 398 (2017); see also Carpenters Indus.
Council v. Zinke, 854 F.3d 1, 5 (D.C. Cir. 2017) (“Eco­
nomic harm to a business clearly constitutes an inju­
ry-in-fact. And the amount is irrelevant. A dollar of
economic harm is still an injury-in-fact for standing
purposes.”). The financial losses claimed by the Bio­
fuels Coalition fit this description. The alleged losses
are concrete in that they are quantified in dollars.
The alleged losses are particularized in that they af­
fect each Biofuels Coalition member who produces
ethanol or ethanol feedstocks.
Certain Biofuels Coalition members also have cog­
nizable injuries as competitors. Probable economic
injury resulting from governmental actions which “al­
ter competitive conditions” can constitute an injury in
fact. Clinton v. City of N.Y., 524 U.S. 417, 432-33, 118
S.Ct. 2091, 141 L.Ed.2d 393 (1998) (citation omitted).
Put another way, “economic actors suffer constitu­
tional injury in fact when agencies lift regulatory re­
strictions on their competitors or otherwise allow in­
creased competition.” Nat’l Biodiesel Bd. v. EPA, 843

43a
F.3d 1010, 1015 (D.C. Cir. 2016) (citation and inter­
nal quotation marks omitted); see also Citizens for
Responsibility & Ethics in Washington v. Trump, 939
F.3d 131, 143 (2d Cir. 2019) (explaining that competi­
tor standing “relies on economic logic to conclude that
a plaintiff will likely suffer an injury-in-fact when the
[defendant] acts in a way that increases competition
or aids the plaintiffs competitors”) (citation omitted,
brackets in original).
The record reflects at least some degree of competi­
tion between the Refineries and certain members of
the Biofuels Coalition. The former produce or market
conventional fuels, and the latter produce or market
alternative fuels. One of the goals of the RFS pro­
gram is to replace crude oil with biofuel, see supra § I,
and alternatives like ethanol displace the traditional
components of petroleum-based fuel. See, e.g., Decla­
ration of Scott Mundt ]j 5 (“RFS requires refiners to
use specified volumes of renewable fuel, such as eth­
anol, to reduce the quantity of petroleum-based
transportation fuel.”); 2011 DOE Study, REC1 at 504
(“Ethanol serves to displace other blending compo­
nents of gasoline.”); HollyFrontier Corporation 2015
Form 10-K at 27 (Feb. 24, 2016), REC1 at 41 (stating
on behalf of the parent entity for Cheyenne and
Woods Cross that “we compete with other industries
that provide alternative means to satisfy the energy
and fuel requirements of our industrial, commercial
and individual consumers,” and “[t]he more success­
ful these alternatives become” the greater the impact
on “pricing and demand for our products and profita­
bility”). The EPA’s decision to extend the small refin­
ery exemption relieves the Refineries from having to
pay for blending or RINs associated with renewable
fuels, including the types of fuel generated by Biofu-

44a
els Coalition members. See supra § I.C.1-3. There is
injury in fact.
The Refineries dispute the second Article III stand­
ing requirement, namely, whether the losses claimed
by the Biofuels Coalition are “fairly traceable” to the
EPA’s decisions to grant the three petitions at issue.
Cheyenne, Woods Cross, and Wynne wood each argue
that there is no evidence showing any individual ex­
tension of the small refinery exemption harmed any
individual Biofuels Coalition member. For example,
Cheyenne and Woods Cross insist that their exempt­
ed RINs constitute only a tiny fraction of the total
RFS obligation. The Refineries also contend that
RFA’s economist did not analyze whether any one ex­
tension resulted in lower ethanol sales or prices for
any one producer, and that RFA’s economist at best
has identified correlation between (rather than prov­
ing causation for) ethanol demand and carryover
RINs.
These arguments are colorable, but we conclude
that the “fairly traceable” requirement is satisfied. In
Massachusetts, a coalition of States, local govern­
ments, and private organizations alleged that the
EPA abdicated its responsibility to regulate certain
greenhouse emissions from new motor vehicles under
the Clean Air Act. 549 U.S. at 504, 127 S.Ct. 1438.
Although “[t]he harms associated with climate
change” were “serious and well recognized,” id. at
521, 127 S.Ct. 1438, the EPA challenged the coali­
tion’s standing to sue by asserting that any decision
not to regulate emissions from new vehicles contrib­
uted “insignificantly to petitioners’ injuries,” and reg­
ulating said emissions would be a drop in the world­
wide bucket and immaterial to mitigating “global
climate change.” Id. at 521, 523—24, 127 S.Ct. 1438.

45a
The Supreme Court did not accept this line of reason­
ing:
The EPA overstates its case. Its argument rests
on the erroneous assumption that a small incre­
mental step, because it is incremental, can never
be attacked in a federal judicial forum. Yet ac­
cepting that premise would doom most challeng­
es to regulatory action. Agencies, like legisla­
tures, do not generally resolve massive problems
in one fell regulatory swoop. They instead whit­
tle away at them over time, refining their pre­
ferred approach as circumstances change and as
they develop a more nuanced understanding of
how best to proceed.
Id. at 524, 127 S.Ct. 1438 (citation omitted). Massa­
chusetts thus held “[wjhile it may be true that regu­
lating motor-vehicle emissions will not by itself re­
verse global warming, it by no means follows that we
lack jurisdiction to decide whether EPA has a duty to
take steps to slow or reduce it.” Id. at 525, 127 S.Ct.
1438 (emphasis in original); see also Consumer Data
Indus. Ass’n v. King, 678 F.3d 898, 902 (10th Cir.
2012) (“[T]he Supreme Court concluded that Massa­
chusetts had standing to challenge the EPA’s refusal
to regulate greenhouse-gas emissions despite the at­
tenuated causal chain linking agency non-action to
potential environmental damage.”).
The causal chain linking the EPA’s grants of the
Refineries’ extension petitions to potential economic
damage to the Biofuels Coalition is no more attenuat­
ed. How much of an economic loss each Biofuels Coa­
lition member may have sustained as a result of the
EPA’s decision to grant a given refinery petition is
certainly debatable, and the amount of any such loss
may be impossible to precisely quantify. But the evi­
dence presented is sufficient to show for standing

46a
purposes that Biofuels Coalition members who pro­
duce ethanol or feedstocks suffered some injury —
even if each individual member’s loss is small — which
is fairly traceable to increasing the number of unre­
tired RINs. Paired with economic principles suggest­
ing that lessened demand for a product will reduce
the price, RFA’s affidavit in this case is enough, in
part because the record otherwise does not establish
that all of the injury to Biofuels Coalition members is
“th[e] result [of] the independent action of some third
party not before the court.” Lujan, 504 U.S. at 56061, 112 S.Ct. 2130 (citation omitted, brackets in orig­
inal).
We recognize that markets are often complicated,
and nothing in today’s opinion should be construed as
holding that the analysis of RFA’s economist is unim­
peachable. When evaluating standing, however, “[t]he
judicial task of determining causation can be impre­
cise” because courts must make a “predictive judg­
ment” about a “notoriously difficult issue” based on a
pre-trial record. Carpenters, 854 F.3d at 6; see also id.
(stating that “[c]ommon sense and basic economics”
may be relevant to assessing causation in this con­
text). It is “well settled” for these purposes that “peti­
tioners need not prove a cause-and-effect relationship
with absolute certainty; substantial likelihood of the
alleged causality meets the test.” Nat. Res. Def.
Council v. NHTSA, 894 F.3d 95, 104 (2d Cir. 2018)
(citation omitted); see also Lexmark Int’l, Inc. v. Static
Control Components, Inc., 572 U.S. 118, 134 n.6, 134
S.Ct. 1377, 188 L.Ed.2d 392 (2014) (reiterating that
“[p]roximate causation is not a requirement of Article
III standing”). “This is true even in cases where the
injury hinges on the reactions of third parties” to an
agency’s conduct. Nat. Res. Def. Council, 894 F.3d at
104.

47a
Additionally, more than just general competitive
harm is fairly traceable to the extensions of the three
small refinery exemptions at issue. Those extensions
not only remove a large compliance burden from the
Refineries, but also specifically relate to products
(ethanol and ethanol feedstocks) that Biofuels Coali­
tion members sold and continue to sell. Several courts
have found causation for purposes of standing when
government action results in concrete and particular­
ized changes to a competitive relationship. See, e.g.,
Nat’l Biodiesel Bd., 843 F.3d at 1015-16 (holding,
based on the facts in a competitor standing case, that
it was “self-evident” the complainants established “in­
jury, causation, and redressability”); Int’l Bhd. of
Teamsters v. U.S. Dep’t of Transp., 724 F.3d 206,
211-12 (D.C. Cir. 2013) (holding, based on the facts
in a competitor standing case, that “[t]he causation
and redressability requirements of Article III are eas­
ily satisfied”).
The Refineries challenge redressability as well, the
third component of the test for Article III standing.
Pointing out that the RINs reinstated by the EPA
were only valid in 2016 and 2017, Cheyenne and
Woods Cross argue that vacating the EPA’s grants of
those petitions will not benefit the Biofuels Coalition
now. Wynnewood joins in by arguing that it was un­
necessary to “reinstate” any 2017 RINs at all for that
refinery. The Refineries also contend that there is no
statutory basis for the EPA to force them to retire dif­
ferent RINs in excess of RFS obligations for future
years, and even if there were, it would be speculative
to conclude this small set of RINs would meaningfully
affect ethanol prices or otherwise change the finan­
cial fortunes of individual Biofuels Coalition mem­
bers. This is especially true, the Refineries assert,
given the Biofuels Coalition’s allegation that there

48a
are already billions of cheap carryover RINs in the
market.
Significantly, however, we have also taken cues
from Massachusetts on redressability. We stated in
Consumer Data that “[t]he Supreme Court has reject­
ed interpretations of the rule that demand complete
redressability, stressing that a plaintiff need show
only that a favorable decision would redress ‘an inju­
ry,’ not ‘every injury.’ ” 678 F.3d at 902 (emphasis in
original, quoting Larson v. Valente, 456 U.S. 228, 243
n.15, 102 S.Ct. 1673, 72 L.Ed.2d 33 (1982)). Referenc­
ing Massachusetts, we found that “[rjedressability
was satisfied” because “the risk of harm would be re­
duced to some extent if petitioners received the relief
they seek.” Id. (citation and internal quotation marks
omitted, emphasis in original). Even more pointedly,
we rejected the argument that a favorable decision
must redress at least one injury completely:
[T]he State cites no authority for this theory, and
neglects to account for Massachusetts v. EPA
where the Court adopted the contrary conclu­
sion — standing is proper where a favorable deci­
sion would relieve “some extent” of an injury. In­
deed, if the law required that the requested relief
afford complete redress, the Supreme Court
would not have allowed Massachusetts to pro­
ceed against the EPA, as there was no guarantee
a favorable decision would mitigate against fu­
ture environmental damage, must less redress it
completely.
Id. at 905 (citation omitted, brackets added). We rec­
ognized the same principle in Chamber of Commerce
of the U.S. v. Edmondson, 594 F.3d 742 (10th Cir.
2010), concluding that “the harms alleged by the
Chambers will likely be ‘reduced to some extent’ by
an injunction running against the Attorney General.”

49a
Id. at 757-58 (citations omitted); see also id. at 757
n.16 (“An opposite holding would contravene Su­
preme Court precedent so as to require complete redressability.”).
We pause to address the Refineries’ point that a fa­
vorable order will not affect the market or redress
any economic harm because all of the reinstated or
exempted RINs were for 2017 or earlier compliance
years. While it is true that a given RIN may be car­
ried over only to the next compliance year, see, e.g.,
40 C.F.R. § 80.1427(6)(i), that RIN may have ongoing
effects as a result of the carryover process. A RIN
generated in year one but used in year two reduces
the amount of blending that must be done or the
number of RIN purchases that must be made in the
second year. This process then repeats itself year to
year. In year two, for instance, any excess blending
accomplished or excess RINs acquired may be carried
over for compliance purposes to year three. The EPA
appears to have implicitly acknowledged these ripple
effects by noting in its proposed standards for 2019
that “[w]hile EPA cannot predict how obligated par­
ties will comply in 2018 or the amount of additional
small refinery hardship exemptions that may be
granted in the future, the 2016 and 2017 exemptions
have directly increased the number of carryover RINs
that will likely be available for compliance with the
2019 standards.” Renewable Fuel Standard Program:
Standards for 2019 and Biomass-Based Diesel Vol­
ume for 2020, 83 Fed. Reg. 32,024, 32,030 (proposed
July 10, 2018).
Moreover, although we do not decide today the na­
ture or scope of the EPA’s remedial powers, we con­
clude that vacating or invalidating the extensions of
the Refineries’ exemptions is “likely” to lead to EPA
action addressing the contested 2016-2017 RINs,

50a
thus at least partially redressing the Biofuels Coali­
tion’s alleged harms. In addition to authorizing civil
penalties, see 42 U.S.C. § 7545(d)(1), the amended
Clean Air Act conveys to federal courts the power to
award injunctive and “other appropriate” relief for
specified violations of the statute or accompanying
regulations. See id. § 7545(d)(2). The statute then di­
rects the EPA to promulgate regulations to “ensure”
that gasoline sold “contains the applicable volume of
renewable fuel.” Id. § 7545(o)(2)(A)(i). Among other
things, those regulations prohibit creating or trans­
ferring “a RIN that is invalid,” 40 C.F.R.
§ 80.1460(b)(2), failing to acquire sufficient RINs or
using invalid RINs “to meet the person’s RVOs,” id.
§ 80.1460(c)(1), and causing another person to com­
mit these and other violations. Id. § 80.1460(d).
On more than one occasion, the EPA has requested
legal action seeking after-the-fact retirements of
RINs. Two examples are highlighted on the EPA’s
website. See Civil Enforcement of the Renewable Fuel
Standard Program, https://www.epa.gov/enforcement/
civil-enforcement-renewable-fuel-standard-program
(last visited January 17, 2020). In United States v.
NGL Crude Logistics, LLC, No. 2:16-cv-1038-LRR
(N.D. Iowa), a complaint filed in 2016 “at the request
of the Administrator” sought to require the defendant
to retire approximately 36 million invalid RINs from
2011 to “offset the harm caused by the violations.”
NGL Crude Logistics Docket No. 21 at 1, 9-13, 23.
The parties entered into a consent decree that ac­
complished just that, with the defendant retiring the
RINs in 2018—2019. Id. Docket No. 247 at 1, 6—7. In
United States v. Chemoil Corp., No. 4:16-cv-05538PJH (N.D. Cal.), the complaint filed at the EPA’s re­
quest sought to require the defendant to retire ap­
proximately 73 million RINs to comply with RVOs

51a
from 2011-2013. Chemoil Corp. Docket No. 1 at 10,
14. That case was also resolved via a consent decree,
with the defendant retiring 65 million RINs in 20162017. Id. Docket No. 7 at 4, 10. The purpose of these
illustrations is not to comment on the legal merits of
the cases, but instead to demonstrate the likelihood
of the EPA taking further action to offset the effects
of any 2016-2017 refinery RINs that are vacated or
deemed invalid by court order.
Post-Sinclair events reinforce this conclusion. After
holding that an existential threat to a refinery’s ex­
istence was not the sine qua non of “disproportionate
economic hardship,” this court vacated two agency
orders denying hardship relief and granted the EPA’s
request for a voluntary remand and vacatur with re­
spect to a third. Producers of Renewables United for
Integrity Truth & Transparency v. EPA, 778 F. App’x
1, 2-3 (D.C. Cir. 2019). On remand, the EPA granted
extensions of these Wyoming refinery exemptions,
and ordered a form of prospective relief:
The three Wyoming refineries had by then
demonstrated compliance with the 2014 and
2015 standards by retiring RINs for those years,
and those RINs had since expired. The EPA thus
decided that, in order to provide the refineries
with “meaningful relief’ from their since-excused
compliance, it would “replac[e]” the retired, ex­
pired RINs with an equal number of newly mint­
ed 2018 RINs.
Id. at 3 (quotation marks and brackets in original). A
petitioner challenged the EPA’s RIN-replacement or­
ders, and the D.C. Circuit transferred the case to this
court. Id. at 3-4. Again, we raise this matter not to
pre-judge the merits of Producers of Renewables, as
those merits will be evaluated by a different panel of
this court. We highlight the case solely to show a like-

52a
lihood that the EPA will not sit on its hands if prior
refinery RINs are invalidated.
The competitor standing doctrine likewise informs
redressability. The EPA’s decisions to lift renewable
fuel requirements by extending the small refinery ex­
emption convey an advantage to the Refineries linked
to the principal economic activity of certain Biofuels
Coalition members (generating, marketing, and sell­
ing ethanol). Courts invoking competitor standing ob­
serve that redressability is “closely related to the
question of causation,” and when the complainants
are subjected to some form of ongoing harm, “it logi­
cally follows that relief would redress their injury at least to some extent, which is all that Article III
requires.” Citizens for Responsibility & Ethics in
Washington, 939 F.3d at 147; see also United States v.
Students Challenging Regulatory Agency Procedures
(SCRAP), 412 U.S. 669, 689 n.14, 93 S.Ct. 2405, 37
L.Ed.2d 254 (1973) (declining to limit standing to
“those who have been ‘significantly’ affected by agen­
cy action,” and noting that “an identifiable trifle is
enough for standing to fight out a question of princi­
ple”) (citation omitted).
Because standing defines and limits the power of
the judicial branch, it does not exist for the conven­
ience of the parties. Standing must be based on spe­
cific facts satisfying all required legal elements, just
as our determination that the Biofuels Coalition has
standing is based on the facts presented here. Still,
the implications of the Refineries’ position cannot be
overlooked. This case is unusual because it involves
decisions to grant three small refinery extension peti­
tions, as opposed to just one. There is evidence in the
record that these three Refineries collectively account
for a non-trivial amount of exempted renewable fuel.
This case also involves multiple third-party produc-

53a
ers, acting through the trade associations or advocacy
groups that constitute the Biofuels Coalition. There is
evidence that these producers collectively account for
a non-trivial amount of ethanol and ethanol feed­
stocks. If these complainants lack a “fairly traceable”
and “redressable” injury vis-a-vis these Refineries, it
is hard to imagine ones that would. In other words, if
the Refineries are correct on the issue of standing,
then EPA decisions to reduce renewable fuel obliga­
tions under the Clean Air Act by granting extensions
of the small refinery exemption may be effectively
unreview able.
This threat is heightened by the manner in which
extension petitions are granted. Small refineries un­
derstandably do not want to publicize otherwise re­
stricted financial information. So the refineries re­
quest that their petitions be kept confidential. E.g.,
REC2 at 598, 653, 687; see also supra § I.C (surveying
some of the legal bases for confidentiality designa­
tions). Given these confidentiality concerns, the EPA
normally does not publish decisions granting small
refinery petitions, in the Federal Register or any­
where else. See Sinclair, 887 F.3d at 992 (“Nor do
third parties have access to the decisions, since the
EPA does not publicly release its decisions because
they contain confidential business information.”).
This makes it difficult for outsiders to determine
when petitions have been filed and granted. Members
of the Biofuels Coalition claim that they only found
out about the agency’s decisions in this matter
through Reuters articles and public company disclo­
sure documents like Forms 10-K. Cooper Decl. If 12;
Jennings Decl. ]f 5; Johnson Deck f 8; Doggett Deck
f 8. Yet without participation by third parties, it is
difficult to see how EPA decisions granting small re­
finery petitions will ever be subject to appellate re-

54a
view. A small refinery that receives an extension of
its renewable fuels exemption has no incentive to ap­
peal. Nor does the EPA have any incentive to appeal
its own decision.
Excepting these EPA small refinery decisions from
judicial review aimed at ensuring statutory compli­
ance would be troublesome. “Congress rarely intends
to prevent courts from enforcing its directives to fed­
eral agencies.” Mach Mining, LLC v. EEOC, 575 U.S.
480, 135 S. Ct. 1645, 1651, 191 L.Ed.2d 607 (2015).
The Administrative Procedure Act (“APA”) “creates a
basic presumption of judicial review [for] one suffer­
ing legal wrong because of agency action.” Weyerhae­
user Co. v. U.S. Fish & Wildlife Serv.
U.S.
139 S. Ct. 361, 370, 202 L.Ed.2d 269 (2018) (citation
and internal quotation marks omitted, brackets in
original). The Supreme Court has long characterized
the presumption favoring judicial review as “strong,”
and it can be rebutted only upon a showing that
“Congress wanted an agency to police its own con­
duct.” Mach Mining, 135 S. Ct. at 1651 (citation omit­
ted). No such showing has been made here, as noth­
ing in the amended Clean Air Act directly “precludes
review” of EPA decisions granting small refinery peti­
tions, and “federal courts routinely assess” these
types of adjudications under APA provisions such as
5 U.S.C. § 706(2). Weyerhaeuser, 139 S. Ct. at 370,
371. Accepting the Refineries’ standing arguments
would largely negate this presumption and preclude
any judicial review of orders granting extensions of
the small refinery exemption.
III. OTHER JURISDICTIONAL ISSUES
The Refineries present several other challenges to
jurisdiction. In addition to contesting jurisdiction
based on the 2014 change in the EPA’s definition of
“small refinery,” see infra § IV.A.2, the Refineries

55a
separately contend that the Biofuels Coalition was
required to, but did not, file this action within 60
days of the issuance of the EPA orders granting the
Refineries’ hardship petitions. The Refineries main­
tain as well that the Biofuels Coalition, notwith­
standing its status as a non-party to agency proceed­
ings on the Refineries’ hardship applications, was re­
quired to present its arguments to the EPA before
seeking judicial review. The EPA contests jurisdiction
based on the 2014 Small Refinery Rule, but does not
join either of the Refineries’ other two jurisdictional
arguments.
A.

TIMELINESS

The Clean Air Act generally requires challenges to
final agency actions to be filed “within sixty days
from the date notice of such promulgation, approval,
or action appears in the Federal Register[.]” 42 U.S.C.
§ 7607(b)(1). “The deadline in § 7607(b)(1) is jurisdic­
tional.” Utah v. EPA, 765 F.3d 1257, 1258 (10th Cir.
2014). Because “Congress waived sovereign immunity
through § 7607(b)(1),” the 60-day deadline “serves a
jurisdictional function” by restricting this congres­
sional waiver. Id. at 1260. The relevant EPA regula­
tion states that “[ujnless the Administrator otherwise
explicitly provides in a particular promulgation, ap­
proval, or action, the time and date of such promulga­
tion, approval or action” for purposes of § 7607(b)(1)
“shall be at 1:00 p.m. eastern time (standard or day­
light, as appropriate) on (a) for a Federal Register
document, the date when the document is published
in the Federal Register, or (b) for any other docu­
ment, two weeks after it is signed.” 40 C.F.R. § 23.3.
The history of § 23.3 is instructive. The main rea­
son the EPA proposed this provision and related pro­
visions was “to bring greater fairness to so-called
‘races to the courthouse.’ ” 50 Fed. Reg. 7,268 (Feb.

56a
21, 1985). Litigants looked for what they perceived as
friendly courts regarding the interpretation of certain
statutes. They then sought “by various means to be
the first to be informed of an Agency action and then
to be the first to file a petition for review in one of the
[friendliest of the] twelve United States courts of ap­
peals.” Id. (brackets added). The Clean Air Act, by
providing for “exclusive judicial review in the D.C.
Circuit of EPA’s nationally-applicable regulations,”
eliminated “a great many racing opportunities,” but
not all of them, and other statutes contained no pro­
visions to reduce racing. Id. In promulgating the new
rules, the agency sought to “eliminate the worst
abuses associated with races to the courthouse under
those EPA-administered statutes that allow racing
and under which races are reasonably likely to oc­
cur.” Id.
One commenter objected to the new rules on the
ground that “affected persons may have no notice of
the action” and be deprived of due process. Id. at
7,269. The EPA addressed that concern by noting
that “[m]ost potential litigants interested in actions
covered by the regulations will have actual notice of
non-Federal Register documents.” Id. As to litigants
with notice, the EPA observed that the rule “will have
the beneficial effect of establishing a fixed trigger for
commencing the judicial review process.” Id. Liti­
gants without notice were not part of any race to the
courthouse, and thus were not addressed by the rule:
“The commenter’s concern - that someone entitled to
seek judicial review, and who has no notice of the ac­
tion, will later be barred from obtaining review by a
preclusive judicial review provision — addresses a
matter not within the scope of this rulemaking. Any
such claim can be raised in judicial proceedings if it
arises in practice.” Id.

57a
The Refineries assert that the reference to “any
other document” in the text of § 23.3 trumps any pre­
amble, but there is no conflict between the two. The
rule provides that agency actions reflected in the
Federal Register become final at 1:00 p.m. eastern
time on the date of publication, and agency actions
reflected in other documents become final two weeks
after publication. The rule is silent as to whether this
principle of finality applies to agency actions effected
by “other document[s]” when parties are without no­
tice. It does not say parties without notice are, or are
not, subject to the rule. Instead, it leaves that issue to
be “raised in judicial proceedings if it arises in prac­
tice.” 50 Fed. Reg. at 7,269.
Filling this silence by construing § 23.3 to foreclose
appeals by parties without notice would be irrational.
What possible purpose would be served by such an
interpretation, other than to immunize unpublished
agency actions from third party scrutiny? The agen­
cy’s justification for promulgating the rule in the first
instance — setting a fixed trigger for commencing the
judicial review process - does not apply to parties
without notice who cannot participate in any race to
the courthouse. As a result, the Refineries’ proposed
interpretation of § 23.3 is not just inconsistent with
the strong presumption favoring judicial review of
agency action. See supra § II. It is also in tension with
the enduring principle that if a literal interpretation
would “lead to absurd results, or be contrary to the
evident meaning of the act taken as a whole, it should
be rejected.” Heydenfeldt u. Daney Gold & Silver Min­
ing Co., 93 U.S. 634, 638, 23 L.Ed. 995 (1876).
We summarize our ruling as follows: The 60-day
deadline in 42 U.S.C. § 7607(b)(1) did not render the
Biofuels Coalition’s petition untimely. Because agen­
cy orders granting the Refineries’ hardship petitions

58a
were not published in the Federal Register, the statu­
tory clock never started.3 The EPA regulation imple­
menting the statute states that documents other than
those published in the Federal Register become final
two weeks after they are signed, but the text and the
preamble demonstrate that the regulation does not
address parties without notice of such “other docu­
ments.” The Refineries’ attempt to invoke the statu­
tory cut-off is misguided.
B.

RIPENESS

The Refineries’ other argument is couched in terms
of ripeness. Although federal courts have a “virtually
unflagging” obligation to hear and decide cases with­
in their jurisdiction, Lexmark, 572 U.S. at 126, 134
S.Ct. 1377 (citations omitted), the ripeness doctrine is
intended “to prevent the courts, through avoidance of
premature adjudication, from entangling themselves
in abstract disagreements over administrative poli­
cies, and also to protect the agencies from judicial in­
terference until an administrative decision has been
formalized and its effects felt in a concrete way by the
challenging parties.” Nat’l Park Hosp. Ass’n v. Dep’t
of Interior, 538 U.S. 803, 807-08, 123 S.Ct. 2026, 155
L.Ed.2d 1017 (2003) (citation omitted). “Determining
whether administrative action is ripe for judicial re­
view requires us to evaluate (1) the fitness of the is­
sues for judicial decision and (2) the hardship to the

3 The statute also permits a party seeking review “based sole­
ly on grounds arising after such sixtieth day” to submit a peti­
tion “within sixty days after such grounds arise.” 42 U.S.C.
§ 7607(b)(1). Here, however, there is no way to hold that the Bio­
fuels Coalition’s petition is based exclusively on grounds arising
60 days after any publication in the Federal Register (thus trig­
gering the “after-arising” 60-day filing period), because no publi­
cation ever took place.

59a
parties of withholding court consideration.” Id. at
808, 123 S.Ct. 2026.
The “fitness for judicial decision” criterion favors
review. Relevant considerations include whether “the
issue is a purely legal one,” whether “the agency deci­
sion in dispute was final,” whether the court would
“benefit from further factual development of the is­
sues presented,” and whether “judicial intervention
would inappropriately interfere with further adminis­
trative action[.]” Wyoming v. Zinke, 871 F.3d 1133,
1141-42 & n.2 (10th Cir. 2017) (citations and internal
quotation marks omitted). No one disputes that the
refinery orders constitute final agency actions. The
core statutory interpretation issues are predominant­
ly legal. Combined with the public record, the exist­
ing agency record is sufficient to decide the fact-based
issues that have been presented on appeal. The EPA’s
position is crystallized in three written orders grant­
ing the refinery petitions. There is no indication that
the EPA intends to reconsider those orders, so judi­
cial review will not interfere with any ongoing or con­
templated administrative activity.
The “hardship to the parties” criterion favors re­
view as well. We have afforded substantial weight to
the hardship element when complainants face “signif­
icant costs, financial or otherwise,” if their disputes
are deemed unripe for adjudication, and when the re­
spondent has “taken some concrete action” that im­
pairs or threatens to impair the petitioner’s interests.
Utah v. U.S. Dep’t of Interior, 535 F.3d 1184, 1197-98
(10th Cir. 2008). All of those factors are present here.
The EPA has taken concrete action by granting the
Refineries’ extension petitions. Exempting the Refin­
eries from RFS compliance impairs the interests of
Biofuels Coalition members by increasing competition
and reducing the value of products those members

60a
market and sell. The alleged harm suffered by Biofu­
els Coalition constituents will worsen if judicial re­
view is delayed or denied.
The Refineries cite authorities discussing the bene­
fits of allowing an administrative agency to consider
the precise question raised, adding that a litigant
waives any argument not so presented. The cases in­
dicate that parties “generally must structure their
participation so that it alerts the agency to the par­
ties’ position and contentions, in order to allow the
agency to give the issue meaningful consideration.”
Forest Guardians u. U.S. Forest Serv., 495 F.3d 1162,
1170 (10th Cir. 2007) (citations and internal quota­
tion marks omitted). The cases also explain that the
waiver rule ensures “simple fairness” to the agency
and other affected litigants, while providing a court
“with a record to evaluate complex regulatory is­
sues!)]” ExxonMobil Oil Corp. v. FERC, 487 F.3d 945,
962 (D.C. Cir. 2007) (citation omitted).
This general presentment requirement does not
cause the case at hand to be unripe. Biofuels Coali­
tion members received no notice of and no invitation
to participate in the proceedings culminating in the
refinery extension orders. Biofuels Coalition members
were thus precluded from raising administrative ar­
guments in opposition to the refinery extensions, and
the EPA cannot be forced to conduct a brand new
hearing. This court is powerless to require adminis­
trative procedures in addition to those set forth in the
APA, Vt. Yankee Nuclear Power Corp. v. Nat. Res.
Def. Council, Inc., 435 U.S. 519, 524, 98 S.Ct. 1197,
55 L.Ed.2d 460 (1978), which beyond its plain text
imposes only “a general ‘procedural’ requirement of
sorts by mandating that an agency take whatever
steps it needs to provide an explanation that will en­
able the court to evaluate the agency’s rationale at

61a
the time of decision.” Pension Benefit Guar. Corp. v.
LTV Corp., 496 U.S. 633, 654, 110 S.Ct. 2668, 110
L.Ed.2d 579 (1990). Even if the refinery orders and
the existing administrative record in theory could be
more tailored to each argument giving rise to this ap­
peal, they in practice provide adequate facts and a
sufficient explanation of the EPA’s reasoning to per­
mit judicial review.
IV. THE BIOFUELS COALITION’S STATUTORY
CONSTRUCTION CHALLENGES
The Biofuels Coalition contends that the EPA ex­
ceeded its statutory authority in at least three re­
spects by granting the Refineries’ petitions. First, the
Biofuels Coalition asserts that the EPA failed to hon­
or the statutory requirement of an “extension,” con­
fusing an extension of an exemption with a plainvanilla exemption. Second, the Biofuels Coalition ar­
gues that the EPA robbed the phrase “disproportion­
ate economic hardship” of its intended meaning by
focusing on structural factors and eschewing a com­
parative analysis to determine which hardships are
disproportionate. Third, the Biofuels Coalition says
the EPA neglected to require that any disproportion­
ate economic hardship was caused by compliance
with RFS obligations.
These arguments rise or fall with the provisions in
42 U.S.C. § 7545(o)(9). For reference, those provisions
state in relevant part:
(9) Small refineries
(A) Temporary exemption
(i) In general
The requirements of paragraph (2) shall not
apply to small refineries until calendar year
2011.

62a
(ii) Extension of exemption
(I) Study by Secretary of Energy
Not later than December 31, 2008, the Sec­
retary of Energy shall conduct for the Admin­
istrator a study to determine whether compli­
ance with the requirements of paragraph (2)
would impose a disproportionate economic
hardship on small refineries.
(II) Extension of exemption
In the case of a small refinery that the Sec­
retary of Energy determines under subclause
(I) would be subject to a disproportionate eco­
nomic hardship if required to comply with
paragraph (2), the Administrator shall extend
the exemption under clause (i) for the small
refinery for a period of not less than 2 addi­
tional years.
(B) Petitions based on disproportionate
economic hardship
(i) Extension of exemption
A small refinery may at any time petition the
Administrator for an extension of the exemp­
tion under subparagraph (A) for the reason of
disproportionate economic hardship.
(ii) Evaluation of petitions
In evaluating a petition under clause (i), the
Administrator, in consultation with the Secre­
tary of Energy, shall consider the findings of
the study under subparagraph (A)(ii) and other
economic factors.
(iii) Deadline for action on petitions

63a
The Administrator shall act on any petition
submitted by a small refinery for a hardship
exemption not later than 90 days after the date
of receipt of the petition.
42 U.S.C. §§ 7545(o)(9)(A)-(B) (emphasis in original).
Plain and unambiguous statutory language must be
enforced “according to its terms,” because we assume
“the ordinary meaning of that language accurately
expresses the legislative purpose.” Hardt v. Reliance
Standard Life Ins. Co., 560 U.S. 242, 251, 130 S.Ct.
2149, 176 L.Ed.2d 998 (2010) (citation and internal
quotation marks omitted). To decide whether the lan­
guage of a statute is plain, “we must read the words
in their context and with a view to their place in the
overall statutory scheme.” King v. Burwell,
U.S.-----, 135 S. Ct. 2480, 2489, 192 L.Ed.2d 483 (2015)
(citation and internal quotation marks omitted). A
statute generally should be interpreted “so that effect
is given to all its provisions, so that no part will be
inoperative or superfluous, void or insignificant.” Ru­
bin v. Islamic Republic of Iran, — U.S.------ , 138 S.
L.Ed.2d
(2018) (citation and
Ct. 816, 824,
internal quotation marks omitted). The goal is to
view the law “as a symmetrical and coherent regula­
tory scheme” and to “fit, if possible, all parts into an
harmonious whole.” FDA u. Brown & Williamson To­
bacco Corp., 529 U.S. 120, 133, 120 S.Ct. 1291, 146
L.Ed.2d 121 (2000) (citations and internal quotation
marks omitted); see also Graham Cty. Soil & Water
Conservation Dist. v. United States ex rel. Wilson, 559
U.S. 280, 290, 130 S.Ct. 1396, 176 L.Ed.2d 225 (2010)
(indicating that a court’s duty is “to construe statutes,
not isolated provisions”) (citation and internal quota­
tion marks omitted).

64a
A.

EXTENSION OF EXEMPTION

The APA states that a reviewing court shall “hold
unlawful and set aside agency action, findings and
conclusions” found to be “in excess of statutory juris­
diction, authority, or limitations, or short of statutory
right[.]” 5 U.S.C. § 706(2)(C). The APA further states
that “ [t] o the extent necessary to decision and when
presented, the reviewing court shall decide all rele­
vant questions of law, interpret constitutional and
statutory provisions, and determine the meaning or
applicability of the terms of an agency action.” Id.
§ 706. When reviewing an agency’s legal determina­
tion, the court generally applies the standard of re­
view articulated by the Supreme Court in Chevron v.
Natural Resources Defense Council, 467 U.S. 837, 104
S.Ct. 2778, 81 L.Ed.2d 694 (1984). See id. at 842-44,
104 S.Ct. 2778 (asking “whether Congress has direct­
ly spoken to the precise question at issue,” and if not,
“whether the agency’s answer is based on a permissi­
ble construction of the statute”).
There are times, however, when Chevron is inappli­
cable. “[Legislative rules and formal adjudications
are always entitled to Chevron deference, while less
formal pronouncements like interpretive rules and
informal adjudications may or may not be entitled to
Chevron deference.” Sinclair, 887 F.3d at 990 (cita­
tion omitted); see also United States v. Mead Corp.,
533 U.S. 218, 229-30, 121 S.Ct. 2164, 150 L.Ed.2d
292 (2001) (“It is fair to assume generally that Con­
gress contemplates administrative action with the
effect of law when it provides for a relatively formal
administrative procedure tending to foster the fair­
ness and deliberation that should underlie a pro­
nouncement of such force.”). In Sinclair, we deter­
mined that “Congress did not intend the EPA’s inter­
pretation of ‘disproportionate economic hardship’ to

65a
have the ‘force of law.’ ” 887 F.3d at 993. And we con­
cluded that informal adjudications of petitions to ex­
tend the small refinery exemption were not subject to
Chevron deference. Id. at 992; see also id. (noting,
among other things, that such adjudications lack
“trial-like procedures” and “the benefit of notice-andcomment”).
When Chevron does not apply, “we follow the anal­
ysis set forth in Skidmore v. Swift & Co., 323 U.S.
134, 65 S.Ct. 161, 89 L.Ed. 124 (1944).” Id. at 991
(parallel citations omitted). Skidmore review means
that the weight provided to an administrative judg­
ment “will depend upon the thoroughness evident in
[the agency’s] consideration, the validity of its reason­
ing, its consistency with earlier and later pronounce­
ments, and all those factors which give it power to
persuade, if lacking power to control.” 323 U.S. at
140, 65 S.Ct. 161 (brackets added). Put another way,
an administrative ruling under Skidmore may “claim
the merit of its writer’s thoroughness, logic, and ex­
pertness, its fit with prior interpretations, and any
other sources of weight.” Mead, 533 U.S. at 235, 121
S.Ct. 2164.
1.

TEXTUAL ANALYSIS

For the Biofuels Coalition’s first statutory argu­
ment, we begin with the text referring to an “Exten­
sion of Exemption.” The small refinery exemption
subject to an extension in this section of the amended
Clean Air Act is expressly identified as “Temporary”
in subpart (A). 42 U.S.C. § 7545(o)(9)(A). That tempo­
rary exemption for small refineries initially lasted
until calendar year 2011. Id. § 7545(o)(9)(A)(i). Con­
gress decided this temporary exemption could be ex­
tended past 2010 for a given small refinery if compli­
ance, as determined by a DOE study, would impose
disproportionate
economic
hardship.
Id.

66a
§ 7545(o)(9)(A)(ii). In subpart (B), Congress decided
that this temporary exemption could also be extended
past 2010 for a small refinery if compliance, as adju­
dicated by the EPA in response to that refinery’s peti­
tion, would impose disproportionate economic hard­
ship. Id. § 7545(o) (9) (B) (i)-(ii).
A common definition of “extension” that meshes
with this statutory scheme is apparent. Several dic­
tionaries include a definition of “extension” to the ef­
fect of “an increase in length of time,” especially “an
increase in time allowed under agreement or conces­
sion.” Extension, Merriam-Webster Online Dictionary,
https://www.merriam-webster.com/dictionary (last vis­
ited January 17, 2020); see also Extension, Collins
Online Dictionary, https://www.collinsdictionary.com/
dictionary/english (“Collins,” last visited January 17,
2020) (“An extension is an extra period of time for
which something lasts or is valid, usually as a result
of official permission.”); Extension, Dictionary.com
Online Dictionary, https://www.dictionary.com/browse
(“Dictionary.com,” last visited January 17, 2020)
(“[A]n additional period of time given one to meet an
obligation[.]”). Similar dictionaries contain a related
definition of “extension”: “[T]he fact of reaching,
stretching, or continuing; the act of adding to some­
thing in order to make it bigger or longer.” Extension,
Cambridge Online Dictionary, https://dictionary.
Cambridge. or g/us/dictionary/english
(“Cambridge,”
last visited January 17, 2020); see also Extension,
Dictionary.com (“[T]hat by which something is ex­
tended or enlarged; an addition[.]”); Extension, Lexico
Online Dictionary, https://www.lexico.com/en/definition
(“Lexico,” last visited January 17, 2020) (“A part that
is added to something to enlarge or prolong it.”).
These dictionaries also indicate that the definition of
“extend” includes “to add to something in order to

67a
make it bigger or longer.” Extend, Cambridge; see also
Extend, Merriam-Webster (“[T]o cause to be longer:
Prolong[.]”) (capitalization omitted).
These ordinary definitions of “extension,” along
with common sense, dictate that the subject of an ex­
tension must be in existence before it can be extend­
ed. For example, if someone interested in current
events subscribes to a news service in years one
through five, allows the subscription to lapse in years
six and seven, and goes back to the news service in
year eight, we usually do not say that year eight was
an “extension” of the subscription from years one
through five. Rather, we say that the person renewed
or restarted his or her subscription in year eight.
Likewise, if someone seeks and obtains permission in
years one through five to shop at a members-only re­
tailer, does not seek or is denied membership in years
six and seven, but seeks and obtains membership in
year eight, we typically do not say that the return to
the retailer in year eight was an “extension” of the
membership. We say, instead, that the person re­
newed or restarted his or her membership in year
eight.
Paired with the rest of the amended Clean Air Act,
therefore, common definitions of “extension” mean
that a small refinery which did not seek or receive an
exemption in prior years is ineligible for an extension,
because at that point there is nothing to prolong, en­
large, or add to. Congress chose to provide an “Exten­
sion of exemption” for disproportionate economic
hardship, based either on the results of the DOE
study or on a meritorious petition. Congress did not
provide an unlimited “Exemption” to every small re­
finery identified in the DOE study or with a meritori­
ous petition. See Advocate Health Care Network v.
Stapleton,
U.S.
137 S. Ct. 1652, 1659, 198

68a
L.Ed.2d 96 (2017) (observing that “[w]hen legislators
did not adopt ‘obvious alternative’ language, ‘the nat­
ural implication is that they did not intend’ the alter­
native”) (citation omitted). Congress presumably used
the term “extension” for a reason, and we should be
hesitant to strip that word of significant meaning. See
TRW, Inc. v. Andrews, 534 U.S. 19, 31, 122 S.Ct. 441,
151 L.Ed.2d 339 (2001) (restating that “[i]t is a cardi­
nal principle of statutory construction that a statute
ought, upon the whole, to be so construed that, if it
can be prevented, no clause, sentence, or word shall
be superfluous, void, or insignificant”) (citation and
internal quotation marks omitted).
This interpretation of “extension” funnels small re­
fineries toward compliance over time. The statute
contemplates a “temporary” exemption for these enti­
ties “with an eye toward eventual compliance with
the renewable fuels program for all refineries.” Her­
mes Consolidated, LLC v. EPA, 787 F.3d 568, 578
(D.C. Cir. 2015). All small refineries were the benefi­
ciaries of a blanket exemption from 2006 through
2010. According to the EPA, 24 of these small refiner­
ies received extensions of their exemptions in the af­
termath of the 2011 DOE study. See supra § I.B. That
number should have tapered down from 2013 for­
ward, because the only small refineries from this
group which continued to be eligible for extensions
were ones that submitted meritorious hardship peti­
tions each year. This reading of “extension” means
that once a small refinery figures out how to put itself
in a position of annual compliance, that refinery is no
longer a candidate for extending (really “renewing” or
“restarting”) its exemption.
The EPA and the Refineries place significant
weight on more recent Congressional pronounce­
ments emphasizing the significance or breadth of the

69a
small refinery exemption. See supra § I.B. The Su­
preme Court has discouraged the use of “|p]ostenactment legislative history (a contradiction in
terms),” stating that such history “is not a legitimate
tool of statutory interpretation.” Bruesewitz v. Wyeth
LLC, 562 U.S. 223, 242, 131 S.Ct. 1068, 179 L.Ed.2d
1 (2011). “Real (pre-enactment) legislative history is
persuasive to some because it is thought to shed light
on what legislators understood an ambiguous statu­
tory text to mean when they voted to enact it into
law. But post-enactment legislative history by defini­
tion could have had no effect on the congressional
vote.” Id. (citations and internal quotation marks
omitted). Bruesewitz assigned no value to “a Commit­
tee Report by a later Congress,” id. at 241, 131 S.Ct.
1068, consistent with other precedent. See, e.g., Bar­
ber v. Thomas, 560 U.S. 474, 486, 130 S.Ct. 2499, 177
L.Ed.2d 1 (2010) (“[W]hatever interpretive force one
attaches to legislative history, the Court normally
gives little weight to statements, such as those of the
individual legislators, made after the bill in question
has become law.”) (emphasis in original); Graham,
559 U.S. at 297-98, 130 S.Ct. 1396 (refusing to rely
on a letter written by the primary sponsors of a bill
“13 years after the amendments were enacted,” as the
letter had “scant or no” interpretive value).
We need not decide whether the post-enactment
history proffered by the EPA and the Refineries is off
limits, because even if we consider those materials,
they do not change the outcome. The post-enactment
materials do not discuss the definition of “extension.”
Moreover, assuming arguendo that certain legislators
thought the small refinery exemption was important,
the ones who enacted the law also made clear that
the renewable fuel targets reflected in the Energy
Policy Act and the Energy Independence and Security

70a
Act were essential to promoting biofuel production,
energy independence, and environmental protection.
See supra §§ I.A—B; see also American Fuel & Petro­
chemical Mfrs. v. EPA, 937 F.3d 559, 568 (D.C. Cir.
2019) (confirming that the RFS program was intend­
ed to “move the United States toward greater energy
independence and security” and “increase the produc­
tion of clean renewable fuels”) (citation omitted).
Those targets were designed to be aggressive and
“market forcing.” See supra §§ I.A-B; see also Ameri­
cans for Clean Energy v EPA, 864 F.3d 691, 710 (D.C.
Cir. 2017) (“[T]he Renewable Fuel Program’s increas­
ing requirements are designed to force the market to
create ways to produce and use greater and greater
volumes of renewable fuel each year.”). To balance all
of those policy concerns, Congress gave small refiner­
ies a substantial amount of time to adapt, commenc­
ing the RFS program with a blanket exemption that
for some refineries ended up lasting seven years.
A small refinery in 2006 was in a much different
position than a small refinery in 2016 or 2017. A
small refinery in 2006 did not have a meaningful op­
portunity to consider in advance whether or how it
could comply with renewable fuel obligations. In con­
trast, a small refinery in 2016 or 2017 had many
years to ponder operational issues and compliance
costs, including whether it made sense to enter into
or remain in the market in light of the statute’s chal­
lenging renewable fuels mandate. The EPA has long
required each small refinery submitting an extension
petition to consider and explain when the refinery
will achieve compliance. 40 C.F.R. § 80.1441(e)(2)(i).
So a small refinery in 2016 or 2017 had an ample op­
portunity to study and understand any dispropor­
tionate economic impact likely to be occasioned by
meeting Congressional targets. Construing the word

71a
“extension” to require prior exemptions — as a predi­
cate to prolongment or enlargement - limits but pre­
serves the small refinery exemption while giving
meaning to the remainder of 42 U.S.C. § 7545(o)(9).
Understanding “extension” to require a predicate
“exemption” is not new. Through at least the first
quarter of 2016, the EPA itself limited “extensions” to
only those small refineries that qualified for the orig­
inal blanket exemption. To illustrate, in April 2016,
the EPA denied a petition submitted by Dakota Prai­
rie Refining, LLC (“Dakota Prairie”) to extend the
small refinery exemption in calendar year 2015. Peti­
tion for Review, Dakota Prairie Refining, LLC u.
EPA, No. 16-2692, at 8 of 17 (8th Cir. June 13, 2016)
(“Dakota Prairie Appellate Petition”).4 The EPA ex­
plained that “ [consistent with the plain language of
the CAA and in furtherance of Congressional intent,
EPA promulgated regulations that allow only small
refineries that previously had received the initial ex­
emption to qualify for an extension of that exemp­
tion.” Id. Hence, “EPA interprets and implements
these provisions as allowing those small refineries
qualifying for the statutory temporary exemption as
now eligible for an extension of that exemption.” Id.
The EPA explained the rationale for this construc­
tion in its April 2016 Dakota Prairie denial letter.
The EPA recognized that “this approach is not only
consistent with the plain language of the statute and
regulations, but also reflects the fact that newer
small refineries have the ability to consider whether
they believe the establishment of the RFS program
4 The Dakota Prairie petition for appellate review attaches
the EPA’s April 14, 2016 denial letter. The petition and its at­
tachments are available on PACER, and those materials are cit­
ed in footnote 4 on page 23 of the EPA’s appellate brief in this
case.

72a
and its requirements will cause economic hardship
before beginning operations.” Id. at 8—9 of 17. Fur­
thermore, said the EPA, “this approach avoids two
possible negative consequences associated with any
refinery exemption — an increase in obligations for
non-exempt facilities or the use of less renewable fuel
than EPA anticipated when it established the appli­
cable percentage standards.” Id. at 9 of 17. The EPA
then put these principles into practice, stating that
“[b]ased on the above, EPA is denying Dakota Prai­
rie’s request to evaluate its petition for a one-year
small refinery exemption for its 2015 RFS obliga­
tions.” Id.
The EPA and the Refineries contend that “exten­
sion” cannot be so interpreted because the statute al­
lows a small refinery to tender a hardship petition “at
any time.” 42 U.S.C. § 7545(o)(9)(B)(i). Common defi­
nitions of “any” are indeed expansive. See, e.g., Any,
Dictionary.com (“[W]hatever or whichever it may
be[.]”); Any, Lexico (equating “any time” with “[a]t
whatever
Merriam-Webster
time”);
Any,
(“[U]nmeasured or unlimited in amount, number, or
extent[.]”). But even if a small refinery can submit a
hardship petition at any time, it does not follow that
every single petition can be granted. By that logic,
the EPA could grant a 2019 petition seeking a small
refinery exemption for calendar year 2009 - more
than a decade after the fact. The EPA would also be
empowered to grant a re-submitted extension petition
for an earlier year even though the agency had previ­
ously denied that very petition. And aside from these
hypothetical examples, EPA data show that the ap­
proach followed by the agency from 2016-forward has
opened up a gaping and ever-widening hole in the
statute. The number of petitions filed by small refin­
eries has gone up substantially, and the EPA has

73a
granted nearly every hardship application. See supra
§ I B.
In any event, a more delimited interpretation in
which an “extension” requires a predicate exemption
works hand-in-hand with the phrase “at any time.”
As noted, the EPA must issue annual RFS percent­
ages by November 30 of the prior year. 42 U.S.C.
§ 7545(o)(3)(A)-(B). Because they can submit peti­
tions “at any time,” small refineries seeking to extend
their hardship exemptions are not limited by this No­
vember 30 deadline. This is a significant statutory
concession. As explained by the D.C. Circuit:
The problem is that while the EPA must promul­
gate annual percentage standards by November
30 each year, refineries may petition for an ex­
emption
“at
any
time,”
42
U.S.C.
§ 7545(o)(9)(B)(i), and the EPA has no mecha­
nism to adjust renewable fuel obligations to ac­
count for exemptions granted after each year’s
percentage standards are finalized. As a result,
because the EPA cannot ensure that non-exempt
obligated parties compensate for the renewablefuel shortfall created by belated exemptions,
those gallons of renewable fuel simply go unpro­
duced.
American Fuel, 937 F.3d at 571 (emphasis in origi­
nal). The EPA raises the percentage standards for
non-exempt parties in a given year by subtracting
from its calculations the transportation fuel contribu­
tions of small refineries that were granted exemp­
tions before the EPA established the percentage
standards in question. Id. at 588 (citing 40 C.F.R.
§ 80.1405(c)). “This solution, however, is only partial:
the EPA does not currently account for small refinery
exemptions granted after it promulgates percentage

74a
standards for that year - so-called retroactive exemp­
tions.” Id. (emphasis in original).
In short, it confers a substantial benefit upon small
refineries and it maintains a coherent regulatory
scheme to interpret “at any time” to exempt hardship
petitioners from the EPA’s annual percentages dead­
line. The EPA does not have a mechanism to fully
compensate for volumes exempted as a result of laterfiled or later-granted small refinery petitions, and the
tool the EPA does have imposes concomitant burdens
on non-exempt obligated parties. See id. at 571
(“When calculating percentage standards for any giv­
en year, the EPA accounts for any small refineries
that have received exemptions by requiring non­
exempt obligated parties to produce proportionally
more.”). Interpreting the phrase “at any time” in this
manner allows the word “extension” to maintain its
ordinary meaning and to meaningfully promote the
aims of the statute. The contrary interpretation sug­
gested in this lawsuit by the EPA and the Refineries
does not.
Although our charge is to evaluate only the EPA’s
adjudication of the three refinery petitions, we draw
theoretical support from Americans for Clean Energy,
864 F.3d 691. One of the issues in that case was the
meaning of the statutory waiver provision based on
supply.”
42
U.S.C.
“inadequate
domestic
§ 7545(o)(7)(A). The EPA attempted to defend a read­
ing of that provision which was held inconsistent
with the letter of the law and the spirit of Congress’
“market forcing policy.” 864 F.3d at 710. The EPA’s
proposed interpretation permitted the agency to un­
duly “bring the volume requirements down,” and “[n]o
argument” supported “that goal-defying (much less
that text-defying) statutory construction.” Id. (cita­
tion omitted); see also id. at 712 (commenting that

75a
the EPA’s interpretation turned “the Renewable Fuel
Program’s ‘market forcing’ provisions on their head”).
The D.C. Circuit observed that even if it were per­
suaded by the agency’s policy arguments for lowering
renewable fuel volume requirements, “those argu­
ments could not overcome the statute’s plain lan­
guage, which is our primary guide to Congress’ pre­
ferred policy. If the regime is indeed flawed, it is up
to Congress and the President to ‘reenter the field’
and fix it.” Id. (citations and first set of internal quo­
tation marks omitted).
Because an “extension” requires a small refinery
exemption in prior years to prolong, enlarge, or add
to, the three refinery petitions in this case were improvidently granted. Wynnewood last received a
hardship exemption in 2012. See supra § I.C.3. There
is no evidence in the record that Woods Cross ever
qualified for a hardship exemption, much less in the
years preceding the refinery’s most recent application
to suspend compliance. See id. § I.C.2. Although
Cheyenne presumably received an exemption in 2015,
its original exemption expired no later than 2013. See
id. § I.C.l. At most, these Refineries sought to renew
or restart their exemptions in 2016 or 2017. The
amended Clean Air Act did not authorize the EPA to
grant the petitions.
2.

THE 2014 SMALL REFINERY RULE

The EPA and the Refineries contend that we lack
jurisdiction to address the foregoing issue as a result
of the 2014 amendment to the regulatory definition of
“small refinery.” The Clean Air Act generally pro­
vides that although challenges to final agency actions
which are “locally or regionally applicable” must be
filed “in the United States Court of Appeals for the
appropriate circuit,” challenges to final agency ac­
tions identified by the EPA as “based on a determina-

76a
tion of nationwide scope or effect” must be filed “in
the United States Court of Appeals for the District of
Columbia[.]” 42 U.S.C. § 7607(b). The statute also
generally specifies that any petition for review under
this subsection must be filed within 60 days from the
date notice of such promulgation, approval, or action
appears in the Federal Register. Id.', see also supra
§ III.A. The EPA and the Refineries assert that the
Biofuels Coalition is effectively challenging the 2014
Small Refinery Rule, and the 60-day window for any
such challenge (which could only be heard in the D.C.
Circuit) closed long ago.
The EPA communicated the basis for the 2014
Small Refinery Rule in a document entitled “Regula­
tion of Fuels and Fuel Additives: RFS Pathways II,
and Technical Amendment to the RFS Standards and
E15 Misfueling Mitigation Requirements.” 79 Fed.
Reg. 42,128 (July 18, 2014). The EPA explained that
in 2010, the agency specified in the definition of
“small refinery” that the 75,000 barrels per day
(“bpd”) threshold determination “should be calculated
based on information from calendar year 2006.” Id. at
42,152. By 2014, however, the agency believed it was
inappropriate that “refineries satisfying the 75,000
bpd threshold in 2006 should be eligible for exten­
sions to their small refinery RFS exemption if they no
longer meet the 75,000 bpd threshold.” Id. According­
ly, the EPA proposed modifying the definition of
“small refinery” so that the 75,000 bpd threshold ap­
plied “in 2006 and in all subsequent years.” Id. The
EPA also proposed specifying that “in order to qualify
for an extension of its small refinery exemption,” a
refinery had to qualify as a “small refinery” for “all
full calendar years between 2006 and the date of

77a
submission of the petition for an extension of the ex­
emption.” Id.5
The EPA received two comments supporting these
proposed modifications, but ultimately decided to is­
sue a different final rule. Id. at 42,152, 42,163. The
EPA stated that “[a]fter further consideration of this
matter,” it understood the agency’s initial proposal
“could unfairly disqualify a refinery from eligibility
for small refinery relief based only on a single year’s
production since 2006.” Id. at 42,152. The EPA
thought it would be improper to treat differently “two
refineries whose recent operating conditions were
equivalent” if “one refinery exceeded 75,000 bpd in a
single year as much as 8 years ago.” Id. The agency
therefore modified the final rule “to require that
throughput be no greater than 75,000 barrels in the
most recent full calendar year prior to an application
for hardship.” Id. The EPA emphasized that its “pri­
mary concern” was “treating refineries with similar
performance the same,” and argued that the new
changes “reasonably implement the statutory defini­
tion of ‘small refinery,’ which indicates that the
75,000 barrel aggregate daily crude oil throughput is
for ‘a calendar year,’ but does not specify which cal­
endar year should be the focus of inquiry.” Id.
While there may be overlap between the definition
of a “small refinery” and the definition of an “exten­
sion,” the two issues are not the same. Qualifying as
a “small refinery” is a necessary but not sufficient
condition for an extension. In addition to meeting the
definition of a “small refinery,” a petitioner must
5 The EPA’s original proposal appears at 78 Fed. Reg. 36,042
(proposed June 14, 2013). See id. at 36,063-64 (“[W]e propose
modifying the definition of small refinery so that the crude
throughput threshold of 75,000 bpd must apply in 2006 and in
all subsequent years.”).

78a
demonstrate that it will suffer disproportionate eco­
nomic hardship if required to comply with the stat­
ute’s renewable fuels directive. 42 U.S.C.
§§ 7545(o)(9)(A)(ii)(II), 7545(o)(9)(B)(i). A petitioner
also must show that it is seeking an “extension” of an
exemption, as opposed to a free-standing “exemption.”
Id. The 2014 Small Refinery Rule establishes who
may seek an extension of an exemption, but it does
not resolve what constitutes a valid extension.
This analysis is consistent with the preamble to
and the text of 40 C.F.R. § 80.1441. Both of those
sources state that to qualify for an extension of the
exemption, a “small refinery” must have average dai­
ly crude oil throughput of 75,000 barrels or less in the
prior year (in contrast to the previous version of the
rule, which looked to an applicant’s throughput in
2006, and in contrast to the EPA’s opening proposal,
which looked to an applicant’s throughput from 2006
to the date of the petition). E.g.,
id.
§ 80.1441(e)(2)(iii). But neither the preamble nor the
administrative rule contains any discussion of what
the word “extension” actually means. The preamble
and the administrative rule also contain no indication
that statute’s use of the word “extension” is ambigu­
ous; the ambiguity the EPA attempted to address ex­
pressly pertained to the phrase “small refinery.” See
79 Fed. Reg. at 42,152 (noting that the statute does
not specify which year should be the focus of the
75,000 bpd small refinery calculation).
Tellingly, the EPA itself previously did not treat
the 2014 Small Refinery Rule as dispositive on the
issue of an “extension” of the exemption. In 2016 almost two years after the amendment reflected in 40
C.F.R. § 80.1441(e)(2)(iii) became effective, see 79
Fed. Reg. at 42,128 - the EPA did not mention its
regulatory definition of “small refinery” when deny-

79a
ing the Dakota Prairie petition. Dakota Prairie Ap­
pellate Petition at 8-9 of 17. If the 2014 Small Refin­
ery Rule controlled the meaning of “extension,” the
EPA would have been required to adjudicate Dakota
Prairie’s petition based on whether the refinery had
average aggregate daily crude oil throughput of
75,000 barrels or less in 2014 and 2015. The EPA did
not do that.
Regardless, there is no challenge in the case at bar
to the 2014 Small Refinery Rule. The Biofuels Coali­
tion does not seek to nullify it. This court expresses
no opinion on its validity. The only remedy sought by
the Biofuels Coalition is to vacate the EPA’s decisions
granting the 2016 and 2017 hardship petitions of
Cheyenne, Woods Cross, and Wynnewood. That, in
turn, limits our review and the scope of any relief we
may grant. Cf. Alon Refining Krotz Springs, Inc. v.
EPA, 936 F.3d 628, 643 (D.C. Cir. 2019) (“[T]he peti­
tions for review filed in 2017 and 2018 raise no back­
door challenge to the 2010 regulation: the petitions
contend that EPA in 2017 arbitrarily refused to take
account of changing economic conditions, and they
seek vacatur only of the 2017 order denying a new
rulemaking going forward.”). The Biofuels Coalition’s
petition to this court was neither misdirected to the
wrong tribunal, nor untimely by virtue of 42 U.S.C.
§ 7607(b). We have jurisdiction to determine whether
the EPA exceeded its authority in exempting three
individual refineries in Oklahoma, Utah, and Wyo­
ming.
For similar reasons, we disagree with the EPA and
the Refineries that Chevron deference, rather than
Skidmore review, is in order. Their argument for
Chevron deference assumes not only that the 2014
Small Refinery Rule is up for grabs in this litigation,
but also that the Rule sets forth a permissible con-

80a
struction of the term “extension.” Neither assumption
is accurate. As discussed, the validity of the 2014
Small Refinery Rule is not being disputed here, only
the validity of unpublished EPA orders granting
small refinery petitions that were not subject to notice-and-comment procedures. Even if the 2014 Small
Refinery Rule reasonably fills a gap in the portion of
the statute defining a “small refinery” by throughput
in an unspecified “calendar year” (an issue we do not
decide today), see 42 U.S.C. § 7545(o)(l)(K), the Rule
does not explain or resolve any ambiguity with re­
spect to the statutory definition of “extension.” We
are thus bound by Sinclair, 887 F.3d at 992-93,
which evaluated informal adjudications of small re­
finery petitions under Skidmore.
B.

DISPROPORTIONATE ECONOMIC HARD­
SHIP

The Biofuels Coalition’s second statutory argument
takes aim at the EPA’s construction of “dispropor­
tionate economic hardship.” As we explained in Sin­
clair, “hardship” is “suffering,” “privation,” or “adver­
sity,” i.e., something that “makes one’s life hard or
difficultf.]” Id. at 996 (citations omitted). Although
the EPA’s comment in the Cheyenne order that relief
may be warranted “even if the refinery’s operations
are not significantly impaired” may prompt questions
about the agency’s interpretation of “hardship,” see
REC2 at 636 n.10, 646 n.41, the Biofuels Coalition
does not dig deeper into the meaning of “suffering,”
“privation,” or “adversity.” We assume for the sake of
argument that at least part of the hardship the EPA
sought to address, see infra § IV.C, was each refin­
ery’s RFS compliance bill for the year in question.
REC2 at 593, 596, 652, 688-89, 694.
A “hardship” for a small refinery, however, is not
enough. The hardship must be “disproportionate.”

81a
The amended Clean Air Act “commands the EPA to
consider the disproportionate impact of the RFS pro­
gram, which inherently requires a comparative eval­
uation.” Sinclair, 887 F.3d at 997 (emphasis in origi­
nal). “The EPA must compare the effect of the RFS
Program compliance costs on a given refinery with
the economic state of other refineries.” Id.; see also
Hermes, 787 F.3d at 575 (reciting that “the relative
costs of compliance alone cannot demonstrate eco­
nomic hardship because all refineries face a direct
cost associated with participation in the program”).
The Biofuels Coalition claims that the EPA bypassed
this part of the statutory test.
We are satisfied that the EPA did not dispense with
a comparative analysis in granting the Refineries’ ex­
tension petitions. Several metrics in the scoring sys­
tem created by the DOE in 2011 are designed to be
comparative. See 2011 DOE Study, RECl at 490
(“[M]etries were developed to evaluate whether each
of the eighteen refineries that responded to the sur­
vey and fall within the scope of the study would suf­
fer an economic hardship relative to an industry
standard”). For example, the Disproportional Eco­
nomic Impact Metric of “Relative refining margin
measure” is calculated as a three year average for all
small refineries, and “[r]efineries with a negative net
average margin were scored a 10; those below the in­
dustry average were scored a 5.” Id. at 527 (emphasis
omitted). The Disproportional Economic Impact Met­
ric of “In a niche market” also recognizes “higher than
industry refining margins for the niche refiner.” Id.
at 527 (emphasis omitted). The Disproportional
Structural Impact Metric of “Renewable fuel blending
(% of production)” further provides that refineries
which “have greater than the industry average of ap­
proximately 32 percent diesel production receive a

82a
score of 5; those at 40 percent diesel or above have a
score of 10.” Id. at 526 (emphasis omitted).
The EPA orders at issue are not as clear as they
might have been, but they contain references to one
or more of these comparative factors. As to Cheyenne,
the EPA highlighted the refinery’s negative net refin­
ing margin, and considered the score of “10” assigned
to the refinery by the DOE for diesel production.
REC2 at 643, 645. As to Woods Cross, the EPA
stressed the refinery’s low net refining margin, along
with blending limitations. Id. at 684. The EPA also
took into account the score of “10” assigned to the re­
finery by the DOE for lacking a niche market. Id. at
683. As to Wynnewood, the EPA again considered net
refining margins, plus DOE rankings for diesel pro­
duction and the presence or absence of a niche mar­
ket. Id. at 738-40. On this record, we cannot say that
the EPA eliminated the requirement of consulting in­
dustry benchmarks when evaluating the Refineries’
assertions of disproportionate economic hardship.
C.

HARDSHIP FROM COMPLIANCE

The Biofuels Coalition’s third statutory argument is
that the EPA relied on disproportionate economic
hardship suffered by the Refineries as a result of
something other than RFS compliance. Part (A) of 42
U.S.C. § 7545(o)(9), in connection with the
“[ejxtension of the exemption” that can be effected by
a DOE study, directed the DOE to investigate
“whether compliance with the requirements” of the
RFS program “would impose a disproportionate eco­
nomic hardship
on
small refineries.”
Id.
§ 7545(o)(9)(A)(ii)(I). The next clause in Part (A) cor­
roborated that if a DOE study determined a small re­
finery “would be subject to a disproportionate eco­
nomic hardship if required to comply” with RFS obli­
gations, then the EPA was obligated to extend the

83a
blanket exemption for another two years. Id.
§ 7545(o)(9)(A)(ii)(II). The plain language of these
provisions indicates that renewable fuels compliance
must be the cause of any disproportionate hardship.
The EPA and the Refineries resist this construction
of the law, pointing to language in Part (B) of the
statute. Part (B) addresses case-by-case applications,
and states that a small refinery may submit a peti­
tion “for an extension of the exemption under subpar­
agraph (A) for the reason of disproportionate econom­
ic hardship.” Id. § 7545(o)(9)(B)(i). “The phrase ‘by
reason of denotes some form of causation,” Husted v.
, 138 S. Ct.
A. Philip Randolph Inst.,
U.S.
1833, 1842, 201 L.Ed.2d 141 (2018), leading the EPA
and the Refineries to argue that small refinery peti­
tions need only be “for the reason of’ economic hard­
ship, not “for the reason of’ RFS compliance.
This suggested interpretation does not view
§ 7545(o)(9)(B)(i) in context. Section 7545(o)(9)(B)(i)
tells the reader that any individual exemption peti­
tion must be “for the reason of’ (and thus caused by)
disproportionate economic hardship, but it does not
attempt to describe what must induce the hardship.
Congress did that work in §§ 7545(o)(9)(A)(ii)(I)—(II),
and then elucidated that the object of any petition
under Part (B) is “an extension of the exemption un­
der subparagraph (A)[.]” Id. § 7545(o)(9)(B)(i). Con­
gress went on to remind the EPA that each case-bycase petition under Part (B) must be assessed in light
of “the findings of the study under subparagraph
and
other
economic
factors.”
Id.
(A)(ii)
§ 7545(o)(9)(B)(ii). Far from being diluted by Part (B),
the hardship-caused-by-compliance requirement in
Part (A) works together with it.
The agency orders granting the Refineries’ exten­
sion petitions are not restricted to disproportionate

84a
economic hardship caused by RFS compliance. The
EPA stated in the Woods Cross and Wynnewood or­
ders that such hardship “can exist on the basis of ad­
verse structural conditions alone,” followed by refer­
ences to “[a] difficult year for the refining industry as
a whole” and an “industry-wide downward trend” of
lower net refining margins. REC2 at 682, 738-39.
The EPA echoed in the Cheyenne order that dispro­
portionate economic hardship may be the result of “a
difficult year for the industry as a whole.” Id. at 645.
Macroeconomic conditions surely provide important
context for assessing individual small refinery exten­
sion petitions. But hardships caused by overall eco­
nomic conditions are different from hardships caused
by compliance with statutory renewable fuel obliga­
tions.
Even if the EPA’s references to structural condi­
tions and the industry as a whole could be character­
ized as inartful shorthand, the agency concluded that
removing RFS obligations for Woods Cross in 2016
and Wynnewood in 2017 would relieve those Refiner­
ies’ disproportionate economic hardship “in whole or
in part[.]” Id. at 684, 741. This statement is indeci­
pherable unless the EPA had in mind hardships be­
yond those caused by RFS compliance. The alleged
hardships imposed on Woods Cross and Wynnewood
were in the form of RFS compliance expenses. Id. at
652, 688-89. Each of those hardships was entirely
eliminated once the EPA suspended the Refineries’
RFS obligations. The only way the EPA’s orders could
have offered relief “in part” was if the agency consid­
ered disproportionate economic hardship occasioned
by something other than complying with the amend­
ed Clean Air Act. Granting extensions of exemptions
based at least in part on hardships not caused by

85a
RFS compliance was outside the scope of the EPA’s
statutory authority.
V.

THE BIOFUELS COALITION’S ADDITION­
AL CHALLENGES

Beyond statutory construction issues, the Biofuels
Coalition contends that the EPA’s analysis of dispro­
portionate economic hardship was arbitrary and ca­
pricious under the APA. See 5 U.S.C. § 706(2)(A). The
Biofuels Coalition asserts the EPA did not recognize
that (1) the Refineries’ economic status was relatively
favorable, because Cheyenne had a one-time $654
million accounting write-down, Woods Cross’s threeyear margin was higher than the industry average,
and Wynnewood characterized $80.4 million in
scheduled turnaround costs as direct operating ex­
penses; (2) overall RIN purchase costs were relatively
modest, especially in comparison to the applicable
state and local sales tax rate for each refinery; (3) the
corporate parents of the Refineries had carryover
RINs which could be used to offset the Refineries’
yearly RFS obligations, and regardless, the financial
health of the parents should have been factored in to
each hardship determination; and (4) prior agency
studies and other documents showed the Refineries
could recoup RFS compliance costs via higher con­
sumer prices.
Our review is “narrow” and “deferential” under the
APA’s “arbitrary and capricious” standard. Dep’t of
Commerce v. New York,
U.S.
, 139 S. Ct.
2551, 2569, 204 L.Ed.2d 978 (2019). An agency need
only “examine the relevant data and articulate a sat­
isfactory explanation for its action including a ration­
al connection between the facts found and the choice
made.” Motor Vehicle Mfrs. Ass’n of the U.S. v. State
Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43, 103 S.Ct.
2856, 77 L.Ed.2d 443 (1983) (citation and internal

86a
quotation marks omitted). A decision is arbitrary and
capricious if an agency “has relied on factors which
Congress has not intended it to consider, entirely
failed to consider an important aspect of the problem,
offered an explanation for its decision that runs coun­
ter to the evidence before the agency, or is so implau­
sible that it could not be ascribed to a difference in
view or the product of agency expertise.” Id.; see also
Dine Citizens Against Ruining Our Env’t v. Bern­
hardt, 923 F.3d 831, 839 (10th Cir. 2019) (adding that
an agency acts arbitrarily and capriciously if it makes
“a clear error of judgment,” but recognizing that a
“presumption of validity attaches to the agency ac­
tion” and the burden of proof lies with those challeng­
ing such action).
This forgiving standard of review dooms almost all
of the Biofuels Coalition’s objections. Right or wrong,
the EPA’s overall assessment of the Refineries’ eco­
nomic status was not arbitrary. There is no evidence
in the record that Cheyenne’s write-down and
Wynnewood’s characterization of expenses were im­
proper accounting maneuvers. Cheyenne suffered a
loss and had other negative financial characteristics
in 2016 even if the write-down is removed from the
equation, and Wynnewood had certain financial fea­
tures from 2016 to 2017 which were consistent with
the EPA’s analysis. Woods Cross’s net refining mar­
gin may have been above average in the aggregate,
but that margin sharply declined in 2016. Nothing in
the amended Clean Air Act or in existing regulations
required the EPA to base its decisions on tax rates or
parent company information. As a result, it is hard to
see how the parental materials for which the Biofuels
Coalition seeks judicial notice could show an abuse of
discretion. In any event, with only one exception,

87a
those judicial notice motions are denied. See infra
§ VI.
There is one objection presented by the Biofuels
Coalition, however, that warrants intervention: The
EPA ignored or failed to provide reasons for deviating
from prior studies showing that RIN purchase costs
do not disproportionately harm refineries which are
not vertically integrated. This oversight is significant
even with deferential review, in part because admin­
istrative agencies “are free to change their existing
policies as long as they provide a reasoned explana­
tion for the change.” Encino Motorcars, LLC v. Na­
varro,
U.S.
, 136 S. Ct. 2117, 2125, 195
L.Ed.2d 382 (2016). An agency must “display aware­
ness that it is changing position” and “show that
there are good reasons for the new policy.” FCC v.
Fox Television Stations, Inc., 556 U.S. 502, 515, 129
S.Ct. 1800, 173 L.Ed.2d 738 (2009) (emphasis omit­
ted). Likewise, if the new policy “rests upon factual
findings that contradict those” upon which the prior
policy was based, the agency must provide a reasoned
explanation “for disregarding facts and circumstances
that underlay or were engendered by the prior poli­
cy.” Id. at 515-16, 129 S.Ct. 1800. “It follows that an
unexplained inconsistency in agency policy is a rea­
son for holding an interpretation to be an arbitrary
and capricious change from agency practice.” Encino
Motorcars, 136 S. Ct. at 2126 (citation, brackets, and
internal quotation marks omitted).
The EPA has dedicated a considerable amount of
attention to whether unintegrated refineries can re­
coup RFS compliance costs by passing them on to
customers. The agency published a study addressing
this topic in 2015. See Dallas Burkholder, EPA Office
of Transportation and Air Quality, A Preliminary As­
sessment of RIN Market Dynamics, RIN Prices, and

88a
Their Effects (May 14, 2015) (“Burkholder Study”),
RECl at 410-40. The EPA concluded that
“[m]erchant refiners, who largely purchase separated
RINs to meet their RFS obligations,” are “recovering
these costs in the sale price of their products.” Id. at
412. The EPA acknowledged that “there is a direct
and obvious cost” in obtaining RINs for merchant re­
finers, who “do not own fuel blending infrastructure”
and “generally purchase RINs from fuel blenders[.]”
Id. at 437. Still, the EPA found that refineries “are
generally able to recover the cost of meeting their
RIN obligations in the price of their petroleum blendstocks.” Id. at 437-38, 440.
The agency revisited this topic in 2017. In response
to multiple petitions seeking to change RFS “point of
obligation” rules, the EPA cited the Burkholder Study
and repeated that “merchant refiners are generally
not uniquely adversely impacted (relative to integrat­
ed refiners).” Denial of Petitions for Rulemaking to
Change the RFS Point of Obligation, EPA-420-R-17008 (November 2017), at 22 & n.57, available at
https://nepis.epa.gov (“EPA Point of Obligation Deni­
al,” last visited January 17, 2020). The EPA similarly
reiterated that while merchant refiners are “directly
paying for the RINs they buy on the market, they are
passing that cost along in the form of higher whole­
sale gasoline and diesel prices.” Id. at 23; see also id.
(explaining that “[e]mpirical data” support the argu­
ment that RIN purchasers “recover the cost of these
RINs in the price of the petroleum blendstocks they
sell”). The EPA reviewed studies submitted by commenters purporting to show “an inability to ‘passthrough’ the cost of the RFS program to consumers,”
but the agency did “not find these assessments con­
vincing.” Id. at 23-24. In contrast, the EPA found
“compelling^’ other papers demonstrating that “the

89a
ability of the merchant refiners to recover the cost of
the RINs was complete (not statistically different
than 100%) and occurred quickly (within 2 business
days).” Id. at 25.
At least through the first quarter of 2019, the EPA
continued to affirm its policy position that merchant
refiners pass through most or all of their RIN pur­
chase costs. The agency reported in March of 2019
that it “conducted an extensive analysis of RIN prices
and market dynamics. After studying the data, we
concluded that RIN prices generally reflected market
fundamentals and that obligated parties (including
parties that purchase separated RINs) recover the
cost of RINs in the market price of gasoline and diesel
fuel they sell.” Modifications to Fuel Regulations To
Provide Flexibility for E15; Modifications to RFS RIN
Market Regulations, 84 Fed. Reg. 10,584, 10,607
(proposed Mar. 21, 2019). The EPA announced the
same conclusion in late 2018, adding that “[e]ven if
we were to assume the cost of acquiring RINs were
not recovered by obligated parties,” a cost-to-sales ra­
tio test “shows that the costs to small entities of the
RFS standards are far less than 1 percent of the val­
ue of their sales.” EPA 2019 Standards, 83 Fed. Reg.
at 63,742.
The EPA did not analyze the possibility of RIN cost
recoupment when it granted the Refineries’ extension
petitions. There is no question that the EPA was
aware of the Burkholder Study, because the agency
cited it in the background section of the Cheyenne or­
der. REC2 at 634 n.5. The EPA has also embraced the
pass-through principle in other litigation, including
when the agency defended its decision to retain exist­
ing point of obligation rules. See Alon Refining, 936
F.3d at 649 (“According to the EPA, refiners recover
the cost of the RINs they purchase by passing that

90a
cost along in the form of higher prices for the petrole­
um based fuels they produce.”) (citation and internal
quotation marks omitted). Nor can there be serious
debate that near-total RIN cost recovery within two
business days would be material to any finding of
“disproportionate economic hardship” for a refinery.
Yet the agency did not explain whether, to what ex­
tent, or why the pass-through principle was inappli­
cable to Cheyenne. Id. at 644—45. The EPA’s Woods
Cross order contains no pass-through analysis either.
Id. at 684^85.
Especially glaring is the lack of any particularized
pass-through analysis by the EPA for Wynnewood.
Under the header of “RIN net revenue or cost,”
Wynnewood acknowledged and attempted to distin­
guish the Burkholder Study in its hardship petition.
Id. at 694. Despite Wynnewood’s explicit attempt to
differentiate the Burkholder Study, however, the
EPA did not address this topic when granting the re­
finery’s petition. The DOE did not score the category
of “RINs net revenue or cost” for Wynnewood, so the
EPA could not have implicitly relied on the findings
of that other agency. Id. at 740 & n.6. The EPA stated
that it generally considered “all of the information
submitted by a petitioner,” but in the process of ex­
tending Wynnewood’s exemption, the agency did not
discuss any arguments for or against applying the
pass-through principle. Id. at 740-41. At best, there­
fore, the EPA ignored its own pass-through studies
and analysis. At worst, the EPA abandoned its prior
studies and analysis sub silentio. In either scenario,
the agency’s action was arbitrary and capricious.
«

Cheyenne and Woods Cross argue in this litigation
that it would have been improper for the EPA to rely
on a general pass-through principle from the
Burkholder Study in adjudicating specific refinery

91a
petitions. Cheyenne and Woods Cross focus on the
following passage from the EPA’s 2017 paper:
While the EPA continues to believe that refiners,
including merchant refiners, are generally able
to recover the cost of RINs through prices they
receive for the petroleum blendstocks they sell,
we also acknowledge that there are many diverse
factors that impact each individual refiner’s prof­
itability and their ability to recover their full cost
of production (including crude oil costs, labor
costs, capital costs, regulatory and compliance
costs, etc.). These factors include, but are not
limited to, the refinery’s location, their access to
various types of crude oil, the local demand and
competition for refined products.
EPA Point of Obligation Denial at 27, cited in HollyFrontier Cheyenne & HollyFrontier Woods Cross
Br. at viii, 53. Cheyenne and Woods Cross supple­
ment this argument by citing Ergon-W. Va., Inc. v.
EPA, 896 F.3d 600 (4th Cir. 2018), in which the Unit­
ed States Court of Appeals for the Fourth Circuit held
it was arbitrary and capricious for the EPA to rely
solely on the Burkholder Study without analyzing
specific evidence presented by a small refinery sug­
gesting an inability to “pass the RIN costs on to pur­
chasers because of the local market’s low acceptance
of blended diesel.” Id. at 613.
We need not decide whether we agree with the
Fourth Circuit’s decision, because this case involves a
different issue. The problem here is not that the EPA
abused its discretion by assigning too much weight to
the Burkholder Study, or to the many other academic
papers and studies indicating that merchant refiner­
ies typically recoup their RIN purchase costs through
higher petroleum fuel prices. Nor is the problem nec­
essarily that the EPA committed reversible errors in

92a
assessing the “diverse factors” potentially impacting
an individual refiner’s ability to pass RIN costs on to
customers. The difficulty is that the EPA did not ad­
dress the applicability of the pass-through principle
at all, even when one of the Refineries attempted to
prove individual circumstances warranting the prin­
ciple’s suspension. We do not know whether the pass­
through studies previously performed or cited by the
EPA matched up with each refinery’s individual con­
ditions (thereby precluding a finding of dispropor­
tionate economic hardship), because the agency de­
clined to address the issue. The EPA thus “failed to
consider an important aspect of the problem,” Motor
Vehicle, 463 U.S. at 43, 103 S.Ct. 2856, and its silence
ran counter to the record.
VI. MOTIONS
In a pair of motions, the Biofuels Coalition requests
judicial notice of certain documents. These documents
include Forms 10-K for the Refineries’ parent organi­
zations, the EPA’s Point of Obligation Denial, a brief
submitted by the EPA in other litigation, memoranda
from EPA and National Economic Council officials,
and an email thread among EPA employees. With the
exception of the Point of Obligation Denial, this opin­
ion relies on none of these materials. We therefore
deny as moot the Biofuels Coalition’s judicial notice
motions as to all but one of the proffered documents.
As to the Point of Obligation Denial, we grant the
request for notice to the extent necessary. The docu­
ment is publicly available on the EPA’s website. In­
formation on a government website is subject to no­
tice if, among other things, it is “not subject to rea­
sonable factual dispute” and part of a source “whose
accuracy cannot reasonably be questioned[.]” New
Mexico ex rel. Richardson v. Bureau of Land Mgmt.,
565 F.3d 683, 702 n.22 (10th Cir. 2009). Although the

93a
EPA says the statements in the Point of Obligation
Denial were made in the context of a different pro­
ceeding, the agency “does not dispute” their accuracy.
EPA Judicial Notice Opposition at 9.
Citing cases such as Fla. Power & Light Co. v. Lorion, 470 U.S. 729, 743-44, 105 S.Ct. 1598, 84 L.Ed.2d
643 (1985), the EPA and the Refineries contend that
judicial review in matters governed by the APA usu­
ally is limited to the existing administrative record.
We do not question that general principle. Even so,
“we have recognized that consideration of extra­
record materials is appropriate in ‘extremely limited’
circumstances,” such as “where the agency ignored
relevant factors it should have consideredf.]” Lee u.
U.S. Air Force, 354 F.3d 1229, 1242 (10th Cir. 2004)
(citation omitted). That is precisely the purpose for
which we have examined the Point of Obligation De­
nial. No more and no less, the document reflects a
relevant policy position that the agency did not spe­
cifically analyze when granting the Refineries’ exten­
sion petitions. Additional special circumstances are
that (1) the Biofuels Coalition had no opportunity to
participate in compiling the administrative record;
and (2) we take judicial notice only of the existence of
the statements in the Point of Obligation Denial, not
of their substantive truth.
Finally, an organization known as the American
Fuel & Petrochemical Manufacturers (“AFPM”) asks
us to consider its amicus curiae brief in support of the
Refineries. AFPM describes itself as “a trade associa­
tion whose members comprise nearly all the petrole­
um refining capacity in the United States,” including
several members which “operate small refineries” re­
ceiving “exemptions” from RFS requirements. AFPM
Motion at 2—3. We grant AFPM’s request. See Fed. R.
App. P. 29(a)(3) (stating that a motion for leave must

94a
indicate “the movant’s interest” and “the reason why
an amicus brief is desirable and why the matters as­
serted are relevant to the disposition of the case”).
The brief submitted by AFPM has been reviewed by
the court and will be considered filed as of the date of
AFPM’s motion for leave. No refiling is necessary.
VII. CONCLUSION
For the foregoing reasons, we vacate the EPA or­
ders granting the exemption extension petitions of
Cheyenne, Woods Cross, and Wynnewood. We re­
mand these matters to the EPA for further proceed­
ings consistent with this opinion. The Biofuels Coali­
tion’s judicial notice motions are denied, subject to
one exception explained above. AFPM’s motion for
leave to file an amicus brief is granted. To the extent
consistent with this opinion, we affirm our prior con­
fidentiality orders in this case, meaning that any
item previously placed under seal by the parties will
remain under seal.

95a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-9533
Renewable Fuels Association, et al.,
Petitioners,
v.
United States Environmental Protection Agency,
Respondent,
and
HollyFrontier Cheyenne Refining, LLC, et al.,
Intervenors-Respondents.
American Fuel & Petrochemical Manufacturers
etal.,
Amici Curiae.
(EPA No. 1-3876)
(Environmental Protection Administration [sic])
Filed April 7, 2020
Before: BRISCOE, KELLY, and LUCERO,
Circuit Judges.
ORDER
This matter is before the court on the Petition for
Rehearing or Rehearing En Banc of Intervenors Hoi-

96a
lyFrontier Cheyenne Refining, LLC, HollyFrontier Re­
fining & Marketing, LLC, and HollyFrontier Woods
Cross Refining (“Holly Frontier Petition”) and Intervenor-Respondent Wynnewood Refining Company,
LLC’s Petition for Rehearing En Banc (“Wynnewood
Petition”). Having carefully considered both petitions
and the filings in this appeal, we direct as follows.
Holly Frontier’s request for panel rehearing is de­
nied pursuant to Fed. R. App. P. 40.
Both the HollyFrontier Petition and the Wynne­
wood Petition were transmitted to all non-recused
judges of the court who are in regular active service.
As no member of the panel and no non-recused judge
in regular active service requested that the court be
polled, the requests for rehearing en banc are denied
pursuant to Fed. R. App. P. 35(f).
The following motions are granted: (1) Motion to
Seal Forthcoming Amicus Brief in Support of Rehear­
ing and to Extend the Current Protective Order Gov­
erning Confidentiality to Movants and Their Brief', (2)
Motion of Contrymark Refining and Logistics, LLC to
Participate as Amicus Curiae; (3) Sinclair Wyoming
Refining Company, Sinclair Casper Refining Compa­
ny, and Big West Oil LLC Motion for Leave to File
Amici Curiae Brief Supporting Intervenor-Respond­
ents; (4) The American Fuel & Petrochemical Manu­
facturers Motion for Leave to File Amicus Curiae Brief
in Support of Petitions for En Banc Rehearing; and
(5) Motion of the Small Refineries Coalition for Leave
to File Amicus Curiae Brief in Support of IntervenorRespondents’ Petitions for Rehearing En Banc.
Entered for the Court
/s/ Christopher M. Wolnert
CHRISTOPHER M. WOLPERT, Clerk

97a
APPENDIX C
STATUTORY AND REGULATORY
PROVISIONS INVOLVED
42 U.S.C. § 7545. Regulation of fuels
(o) Renewable fuel program
(9) Small refineries
(A) Temporary exemption
(i) In general
The requirements of paragraph (2) shall not
apply to small refineries until calendar year
2011.
(ii) Extension of exemption
(I) Study by Secretary of Energy
Not later than December 31, 2008, the Sec­
retary of Energy shall conduct for the Admin­
istrator a study to determine whether compli­
ance with the requirements of paragraph (2)
would impose a disproportionate economic
hardship on small refineries.
(II) Extension of exemption
In the case of a small refinery that the Sec­
retary of Energy determines under subclause
(I) would be subject to a disproportionate eco­
nomic hardship if required to comply with
paragraph (2), the Administrator shall extend
the exemption under clause (i) for the small

98a
refinery for a period of not less than 2 addi­
tional years.
(B) Petitions based on disproportionate eco­
nomic hardship
(i) Extension of exemption
A small refinery may at any time petition the
Administrator for an extension of the exemp­
tion under subparagraph (A) for the reason of
disproportionate economic hardship.
(ii) Evaluation of petitions
In evaluating a petition under clause (i), the
Administrator, in consultation with the Secre­
tary of Energy, shall consider the findings of
the study under subparagraph (A)(ii) and other
economic factors.
(iii) Deadline for action on petitions
The Administrator shall act on any petition
submitted by a small refinery for a hardship
exemption not later than 90 days after the date
of receipt of the petition.
(C) Credit program
If a small refinery notifies the Administrator
that the small refinery waives the exemption un­
der subparagraph (A), the regulations promulgat­
ed under paragraph (2)(A) shall provide for the
generation of credits by the small refinery under
paragraph (5) beginning in the calendar year fol­
lowing the date of notification.
(D) Opt-in for small refineries
A small refinery shall be subject to the re­
quirements of paragraph (2) if the small refinery

99a
notifies the Administrator that the small refinery
waives the exemption under subparagraph (A)

40 C.F.R. § 80.1441. Small refinery exemption
(a)
(1) Transportation fuel produced at a refinery by
a refiner, or foreign refiner (as defined at
§ 80.1465(a)), is exempt from January 1, 2010
through December 31, 2010 from the renewable fuel
standards of § 80.1405, and the owner or operator
of the refinery, or foreign refinery, is exempt from
the requirements that apply to obligated parties
under this subpart M for fuel produced at the refin­
ery if the refinery meets the definition of a small re­
finery under § 80.1401 for calendar year 2006.
(2) The exemption of paragraph (a)(1) of this sec­
tion shall apply unless a refiner chooses to waive
this exemption (as described in paragraph (f) of this
section), or the exemption is extended (as described
in paragraph (e) of this section).
(3) For the purposes of this section, the term “re­
finer” shall include foreign refiners.
(4) This exemption shall only apply to refineries
that process crude oil through refinery processing
units.
(5) The small refinery exemption is effective im­
mediately, except as specified in paragraph (b)(3) of
this section.
(6) Refiners who own refineries that qualified as
small under 40 CFR 80.1141 do not need to resub­
mit a small refinery verification letter under this

100a
subpart M. This paragraph (a) does not supersede
§ 80.1141.
(b)
(1) A refiner owning a small refinery must sub­
mit a verification letter to EPA containing all of the
following information:
(i) The annual average aggregate daily crude
oil throughput for the period January 1, 2006
through December 31, 2006 (as determined by di­
viding the aggregate throughput for the calendar
year by the number 365).
(ii) A letter signed by the president, chief oper­
ating or chief executive officer of the company, or
his/her designee, stating that the information
contained in the letter is true to the best of
his/her knowledge, and that the refinery was
small as of December 31, 2006.
(iii) Name, address, phone number, facsimile
number, and e-mail address of a corporate contact
person.
(2) Verification letters must be submitted by July
1, 2010 to one of the addresses listed in paragraph
(h) of this section.
(3) For foreign refiners the small refinery exemp­
tion shall be effective upon approval, by EPA, of a
small refinery application. The application must
contain all of the elements required for small refin­
ery verification letters (as specified in paragraph
(b)(1) of this section), must satisfy the provisions of
§ 80.1465(f) through (i) and (o), and must be sub­
mitted by July 1, 2010 to one of the addresses listed
in paragraph (h) of this section.

101a
(4) Small refinery verification letters are not re­
quired for those refiners who have already submit­
ted a complete verification letter under subpart K
of this part 80. Verification letters submitted under
subpart K prior to July 1, 2010 that satisfy the re­
quirements of subpart K shall be deemed to satisfy
the requirements for verification letters under this
subpart M.
(c) If EPA finds that a refiner provided false or in­
accurate information regarding a refinery’s crude
throughput (pursuant to paragraph (b)(l)(i) of this
section) in its small refinery verification letter, the
exemption will be void as of the effective date of these
regulations.
(d) If a refiner is complying on an aggregate basis
for multiple refineries, any such refiner may exclude
from the calculation of its Renewable Volume Obliga­
tions (under § 80.1407) transportation fuel from any
refinery receiving the small refinery exemption under
paragraph (a) of this section.
(e)

(1) The exemption period in paragraph (a) of this
section shall be extended by the Administrator for a
period of not less than two additional years if a
study by the Secretary of Energy determines that
compliance with the requirements of this subpart
would impose a disproportionate economic hardship
on a small refinery.
(2) A refiner may petition the Administrator for
an extension of its small refinery exemption, based
on disproportionate economic hardship, at any
time.
(i) A petition for an extension of the small re­
finery exemption must specify the factors that

102a
demonstrate a disproportionate economic hard­
ship and must provide a detailed discussion re­
garding the hardship the refinery would face in
producing transportation fuel meeting the re­
quirements of § 80.1405 and the date the refiner
anticipates that compliance with the require­
ments can reasonably be achieved at the small re­
finery.
(ii) The Administrator shall act on such a peti­
tion not later than 90 days after the date of re­
ceipt of the petition.
(iii) In order to qualify for an extension of its
small refinery exemption, a refinery must meet
the definition of “small refinery” in § 80.1401 for
the most recent full calendar year prior to seeking
an extension and must be projected to meet the
definition of “small refinery” in § 80.1401 for the
year or years for which an exemption is sought.
Failure to meet the definition of small refinery for
any calendar year for which an exemption was
granted would invalidate the exemption for that
calendar year.
(f) At any time, a refiner with a small refinery ex­
emption under paragraph (a) of this section may
waive that exemption upon notification to EPA.
(1) A refiner’s notice to EPA that it intends to
waive its small refinery exemption must be received
by November 1 to be effective in the next compli­
ance year.
(2) The waiver will be effective beginning on
January 1 of the following calendar year, at which
point the transportation fuel produced at that re­
finery will be subject to the renewable fuels stand­
ard of § 80.1405 and the owner or operator of the
refinery shall be subject to all other requirements

103a
that apply to obligated parties under this Subpart
M.
(3) The waiver notice must be sent to EPA at one
of the addresses listed in paragraph (h) of this sec­
tion.
(g) A refiner that acquires a refinery from either an
approved small refiner (as defined under § 80.1442(a))
or another refiner with an approved small refinery
exemption under paragraph (a) of this section shall
notify EPA in writing no later than 20 days following
the acquisition.
(h) Verification letters under paragraph (b) of this
section, petitions for small refinery hardship exten­
sions under paragraph (e) of this section, and small
refinery exemption waiver notices under paragraph
(0 of this section shall be sent to the attention of
“RFS Program” to the address in § 80.10(a).

